<html>
<title> - VA AND DOD IT: ELECTRONIC HEALTH RECORDS INTEROPERABILITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




       VA AND DOD IT: ELECTRONIC HEALTH RECORDS INTEROPERABILITY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         INFORMATION TECHNOLOGY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                                AND THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2015

                               __________

                           Serial No. 114-147

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-915 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK, MULVANEY, South Carolina       BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
   Troy Stock, Subcommittee on Information Technology Staff Director
                 David Rapallo, Minority Staff Director
                           Sarah Vance, Clerk

                                 ------                                

                 SUBCOMMITTEE ON INFORMATION TECHNOLOGY

                       WILL HURD, Texas, Chairman
BLAKE FARENTHOLD, Texas, Vice Chair  ROBIN L. KELLY, Illinois, Ranking 
MARK WALKER, North Carolina              Member
ROD BLUM, Iowa                       GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               TAMMY DUCKWORTH, Illinois
                                     TED LIEU, California
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McKNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois

                  Jon Towers, Majority Staff Director
Eric Hannel, Subcommittee on Oversight and Investigtions Staff Director
                     Jessica Eggimann, Chief Clerk
                 Don Phillips, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    MIKE COFFMAN, Colorado, Chairman
DOUG LAMBORN, Colorado               ANN M. KUSTER, New Hampshire, 
DAVID P. ROE, Tennessee                  Ranking Member
DAN BENISHEK, Michigan               BETO O'ROURKE, Texas
TIM HUELSKAMP, Kansas                KATHLEEN RICE, New York
JACKIE WALORSKI, Indiana             TIMOTHY J. WALZ, Minnesota




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 27, 2015.................................     1

                               WITNESSES

The Hon. Laverne Council, Assistant Secretary for Information 
  Technology, Chief Information Officer, U.S. Department of 
  Veterans Affairs
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Brian P. Burns, Deputy Director, Warfighter Systems 
  Integration, Office of Information Dominance, U.S. Department 
  of Veterans Affairs
Mr. Christopher A. Miller, Program Executive Officer, Defense 
  Healthcare Management Systems, U.S. Department of Defense
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. David Devries, Principal Deputy Chief Information Officer, 
  U.S. Department of Defense
    Oral Statement...............................................    30
    Written Statement............................................    32
Ms. Valerie C. Melvin, Director of Information Management and 
  Technology Resources Issues, U.S. Government Accountability 
  Office
    Oral Statement...............................................    40
    Written Statement............................................    42

                                APPENDIX

Congressman Gerald E. Connolly Opening Statement.................    96
Questions for the Record for the Hon. LaVerne Council, submitted 
  by Chairman Hurd...............................................    99
Questions for the Record for Mr. Christopher Miller, Submitted by 
  Chairman Hurd..................................................   103

 
       VA AND DOD IT: ELECTRONIC HEALTH RECORDS INTEROPERABILITY

                              ----------                              


                       Tuesday, October 27, 2015

                  House of Representatives,
            Subcommittee on Information Technology,
              Committee on Oversight and Government Reform,
              joint with the Subcommittee on Oversight and 
             Investigations, Committee on Veterans' Affairs
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:50 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Will Hurd 
[chairman of the Subcommittee on Information Technology, 
Committee on Oversight and Government Reform] presiding.
    Present from the Committee on Oversight and Government 
Reform: Representatives Hurd, Farenthold, Walker, Blum, Kelly, 
Connolly, Duckworth, Lieu, and Moulton.
    Present from the Committee on Veterans' Affairs: 
Representatives Coffman, Lamborn, Roe, Benishek, Huelskamp, 
Walorski, Kuster, O'Rourke, and Walz.
    Mr. Hurd. The Subcommittee on Information Technology of the 
Committee on Oversight and Government Reform and the 
Subcommittee on Oversight and Investigations of the Committee 
on Veterans' Affairs will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Let me start today's hearing by trying to simply state my 
frustration. It's the year 2015. We live in a complex 
interconnected society with self-driving cars, wearable 
technology, and complex algorithms that can predict when a 
critical mechanical component is going to break, but our 
soldiers, sailors, airmen, and marines who are making the 
transition from DOD to VA healthcare are literally told to 
print out hard copies of their medical records and then walk 
them to the VA.
    We have sent men to the moon and robots to Mars. I feel 
like we should be able to move one electronic file no matter 
how big, no matter how old, from one computer system to 
another. I don't mean to understate the enormity of the 
challenge of integrating the two largest Federal bureaucracies, 
but it's clear to me that our inability to integrate these two 
systems is a problem of leadership rather than technical 
feasibility.
    The story of the interoperable electronic health record 
starts in 1998 with the government computer-based patient 
record initiative. Since then, I've counted six programs or 
other initiatives from 2002 to 2013 designed to increase the 
exchange of healthcare data between the VA and the DOD.
    In that time, we've had three Presidents and two wars, and 
the members of our Armed Forces are still coming home to find 
that two decades was not long enough for these two Departments 
to get together and develop a workable and fully interoperable 
electronic health record.
    While today's hearing could include a conversation laced 
with technical terminology, interoperability, mapping national 
data standards, graphical user interfaces, and health data 
domains, at its core, this is not a problem of technology. This 
is an issue of management.
    Why do these two departments abandon the integrated health 
record program? Cost-effectiveness was the answer given after 
spending, according to the Interagency Program Office, $564 
million on the integrated health record. But continual failures 
to make deadlines and deliver on capabilities led to these two 
Departments doing what they so often have done in the past: go 
their separate ways.
    The current plan for DOD and the VA to modernize their 
healthcare IT infrastructure in order to achieve full 
interoperability lacks metrics and goals. These are not issues 
of data standardization. This is management 101. In fiscal year 
2014, the Department of Veterans Affairs spent 3.2 billion on 
outdated legacy technology while Department of Defense spent 
24.3 billion.
    Over the summer, DOD awarded a $4.3 billion contract award 
to upgrade DOD's DHMSM program, which is DOD's program to 
modernize its health IT systems. But what concerns me are the 
statements by Mr. Frank Kendall, the Under Secretary of Defense 
for Acquisition, Technology, and Logistics, who downplayed the 
role of DHMSM in interoperability. Mr. Kendall made these two 
comments about DHMSM, ``It's a big misconception out there that 
this software system we're buying is about interoperability, 
period. There is not a big interoperability problem with the VA 
and DOD today.''
    This is the problem I keep coming back to. Does management 
understand the depth of the problem when it comes to 
interoperability? Let me say this right now, just to get it out 
of the way. The Joint Legacy Viewer, the JLV, is not real 
interoperability, and I hope that is not any one of you all's 
answers today to any of our questions about interoperability. 
The ability to view patient data and the ability to access and 
use in realtime patient data are two profoundly different 
things. Missed deadlines, cost overruns, and failures to 
deliver on expectations leave me with a series of doubts about 
these two Departments' ability to work towards this common 
goal.
    When can DOD and the VA actually implement their planned IT 
improvements? When can DOD and the VA modernize their systems? 
When can DOD and the VA achieve full interoperability? I am 
looking forward to exploring these topics today.
    My colleagues and I recognize these are big challenges. 
Interoperability of health records is something the private 
sector is still struggling with, but if DOD and the VA get it 
right, they can be a model for the rest of the world. At the 
end of the day, when we cut through all the technical jargon, 
the myriad of acronyms and the countless PowerPoints on this 
topic, we have two very simple questions that must be answered: 
When will our men and women in uniform be able to walk across 
the street the day they are discharged from service to a VA 
medical facility and have their health record waiting for them, 
and who is in charge of making this happen?
    It's now my pleasure to recognize the ranking member of the 
Subcommittee on Information Technology, Ms. Kelly from 
Illinois, for her opening statement.
    Ms. Kelly. Thank you, Mr. Chairman.
    According to the American Hospital Association, only 23 
percent of all hospitals are equipped with the technology that 
would allow them to find, send, receive, and use electronic 
health records. The ability of different healthcare providers 
to share and use electronic health information with one 
another, regardless of their location, is often referred to as 
interoperability. The American Hospital Association's findings 
made clear that achieving the full interoperability of 
electronic health records among different healthcare providers 
is a challenge the entire healthcare industry is struggling to 
meet.
    Nowhere is this challenge more prevalent, as my chairperson 
said, than with the Department of Defense and the Department of 
Veterans Affairs, operators of two of the Nation's largest 
healthcare systems. For our military personnel and veterans, 
the interoperability of electronic health records is crucial 
for ensuring they receive the best medical care.
    While on Active Duty and later on as veterans, many DOD and 
VA personnel tend to be highly mobile and are more likely to 
have health records residing at multiple medical facilities 
within and outside of the United States. For several years now, 
the VA and the DOD have been working to achieve 
interoperability. Both report that so far, as interoperability 
concerns, the exchange and use of electronic health records 
between their two systems, this goal has been achieved.
    However, as GAO's August report on the status of 
interoperability at both the VA and the DOD makes clear, both 
Departments are still years away from achieving full 
interoperability so that the electronic health records can be 
exchanged and used not just between their two systems but with 
any private medical provider in the country.
    GAO recommended that VA and DOD promptly develop outcome-
oriented metrics and goals for defining and measuring their 
progress on achieving full interoperability. As GAO noted in 
its report, and I quote, ``using an effective outcome-based 
metric approach could provide DOD and VA a more accurate 
ongoing picture of their progress toward achieving 
interoperability and the value and benefits generated.''
    I look forward to hearing in more detail from today's 
witnesses on their plans for ensuring that the VA and DOD have 
in place a fully modernized interoperable electronic health 
records system.
    Today's hearing also raises valid cybersecurity concerns 
with respect to what each Department is doing to ensure that 
medical records stored on their networks are adequately 
protected from hackers. As we've learned from this year's cyber 
attacks against leading health insurers, like Anthem and 
Premera or Blue Cross, hackers are now targeting medical 
records in an effort to obtain highly sensitive information 
about individuals.
    As the operators of two of the Nation's largest healthcare 
systems, it is critical that DOD and the VA invest in and 
deploy the most advanced cybersecurity tools to safeguard the 
sensitive medical information that is stored on their networks.
    Thank you, Mr. Chair, for the hearing, and I yield the 
balance of my time.
    Mr. Hurd. Thank you, Ms. Kelly. I now welcome and recognize 
the chairman of the Subcommittee on Oversight and 
Investigations, the Committee on Veterans' Affairs, Mr. Coffman 
from Colorado, who has been showing leadership on supporting 
our veterans for many years.
    I welcome you for your opening statement, sir.
    Mr. Coffman. Thank you, Chairman Hurd.
    I would like to welcome everyone to today's joint hearing 
to address ongoing issues with the electronic health records or 
EHR's of the Department of Defense and Veterans Affairs. VA and 
DOD have been attempting to harmonize their EHRs for decades, 
leading to an erratic history where billions of dollars have 
been expended to reach that goal.
    Initially, they sought to make their systems interoperable, 
the plan being that they could keep their separate systems but 
make them able to seamlessly transmit critical data. Later, the 
agencies abandoned that idea and decided that it would be 
better to create a new, integrated system that would be shared 
by both agencies.
    In a February 2014 report, GAO found that the VA and DOD 
Interagency Program Office charged with overseeing these 
efforts estimated the cost of this integrated system would be 
$29 billion from fiscal year 2013 through fiscal year 2029. 
Notably, this figure does not include the pre-2013 attempts by 
the agency to join their health records dating back to at least 
1998.
    Yet, again, the decision was made to switch course, this 
time abandoning the efforts to create an integrated system 
after spending at least $564 million on it and resuming pursuit 
of separate systems that would ideally achieve full 
interoperability.
    There have been numerous subcommittee investigations, 
hearings, and GAO reports highlighting the extreme dysfunction 
occurring in this process. The National Defense Authorization 
Acts for fiscal year 2008 and 2014 were explicit in their 
requirements for VA and DOD to jointly develop fully 
interoperable EHR systems as well as to ensure that all 
healthcare data contained in both agencies' systems complied 
with national standards and were computable in realtime.
    Both agencies have failed to meet this legal requirement by 
missing the October 1, 2014 deadline. To do so, and GAO has 
found that full interoperability will not occur before 2018. 
Additionally, the Centers for Medicare and Medicaid Services 
developed criteria to incentivize meaningful use of certified 
EHRs in order to help promote health data interoperability. In 
the private sector, the path toward compliance and 
certification with those criteria is generally done using 
commercial off-the-shelf software.
    Use of successfully deployed off-the-shelf software lowers 
risk of project failure, reduces time to get to the desired 
capability, and, generally speaking, costs less at 
implementation and sustainment, none of which appeared to 
matter to VA. Instead, VA opted to create a proprietary system 
which many of its healthcare facilities across the country have 
further customized, leading to 130 different electronic 
healthcare systems.
    Unfortunately, this sort of disarray and failure to produce 
positive results has become the hallmark of VA's Office of 
Information and Technology. There has been a substantial 
personnel change in that office, which is encouraging, but 
there is a tremendous amount of damage that must be undone 
before these agencies' EHRs can meaningfully interact.
    The National Defense Authorization Act--I look forward to 
hearing from the witnesses today about the rationale for the 
decisions that have been made as well as the plans to correct 
decades of information security weaknesses within both 
Departments.
    With that, I yield back to Chairman Hurd.
    Mr. Hurd. Thank you, Chairman Coffman.
    I now recognize the ranking member of the Subcommittee on 
Oversight and Investigations, Ms. Kuster, for an opening 
statement.
    Ms. Kuster. Thank you, Chairman Hurd, Chairman Coffman, and 
Ranking Member Kelly for holding this hearing on issues with 
DOD and VA electronic health records. Both agencies have been 
working for almost 20 years to achieve true interoperability 
for their health records, and one of my very first hearings at 
the VA committee was on this topic. The goal of real 
interoperability and the seamless sharing of health information 
has seemed in reach, but unfortunately, never quite achieved.
    In an August 2015 GAO report, GAO noted that both agencies 
had failed the October 2014 deadline imposed by the 2014 
National Defense Authorization Act, as referenced by my chair, 
to certify that all healthcare data complies with national data 
standards and is computable in realtime. DOD and VA now report 
that they may be, quote, ``weeks away'' from meeting this 
deadline a full year later, but it is still unclear whether VA 
and DOD will achieve interoperability between their electronic 
health records by the end of 2016.
    This raises what I believe to be the heart of this decade-
long effort and why the achievement of this goal always seems 
to be just out of reach. What, in practical terms, does 
interoperability mean to DOD, VA, and private providers? GAO 
refers to this as, quote, ``the criticality of these 
Departments needing to define what they aim to accomplish 
through these efforts and identify meaningful outcome-oriented 
goals and metrics that indicate not only the extent to which 
progress is being made toward achieving full interoperability 
but also the measures to which they will be held accountable.''
    If we are not clear as to what we all mean by 
interoperability and what we're hoping to achieve in the case 
of an individual veteran or servicemember in the healthcare 
they receive, then we will never achieve what we need to and 
interoperability will only be in the eye of the beholder. The 
search for real interoperability goes beyond DOD and VA and 
raises questions as to our expectations regarding how 
healthcare data flows between agencies, and now with the VA 
Choice Card, between those agencies and private healthcare 
providers.
    In addition, we must always ensure to the fullest extent 
practicable that this healthcare data is secure and safe. Until 
VA is able to demonstrate that its providers are able to 
readily access the relevant information from DOD records to 
make the most informed decisions on treatment options, neither 
agency can declare mission accomplished.
    As DOD pursues an overall of its EHR through the latest 
partnership for defense health and VA continues with its 
incremental plan to modernize the VistA EHR under the new VistA 
Evolution Program, I remain concerned that interoperability 
will no longer be a DOD and VA focus. I'm concerned that these 
separate efforts, at the end of the day, might not fully match 
the capabilities we envision while coming with a higher price 
tag for the American taxpayer.
    The recent VA independent assessment found that VistA is in 
danger of become obsolete and that VA lacks standard clinical 
documentation, making it difficult to exchange EHR information 
among all VA medical centers. We need to take a realistic look 
at whether the VistA evolution program is the best means for VA 
to modernize its EHR system and achieve all the benefits and 
capabilities of interoperability with DOD and private 
providers.
    As more servicemembers leave the military and as more 
veterans and servicemembers receive their healthcare from a 
combination of VA, DOD, and private providers, it is vitally 
important that DOD and VA work to achieve interoperability not 
only between the two agencies but with other healthcare 
providers treating veterans.
    And, with that, I yield back, and thank you, Mr. Chairman, 
for scheduling this hearing.
    Mr. Hurd. Thank you, Ms. Kuster.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement. And I 
want to thank the staffs of all the committees for helping us 
to be prepared for such an important hearing that we have going 
on today.
    I'd like to also note the presence of our fellow colleague 
from the full Committee on Oversight and Government Reform, Mr. 
Hice and also Seth Moulton, Mr. Seth Moulton.
    Without objection, Mr. Hice and Mr. Moulton are welcome to 
fully participate in today's hearing.
    We will now recognize our witnesses. I am pleased to 
welcome Ms. LaVerne Council, Assistant Secretary for 
Information Technology and Chief Information Officer at the 
U.S. Department of Veterans Affairs.
    Thank you for being here, Ms. Council.
    Mr. Brian Burns, Deputy Director of Warfighter Systems 
Integration at the Office of Information Dominance at the U.S. 
Department of Veterans Affairs; Mr. Christopher Miller, program 
executive officer of Defense Healthcare Management Systems at 
the U.S. Department of Defense; Mr. David DeVries, Principal 
Deputy Chief Information Officer at the U.S. Department of 
Defense; and Ms. Valerie Melvin, Director of Information 
Management and Technology Resources Issues at the U.S. 
Government Accountability Office.
    Welcome to you all, and thank you for being here.
    Pursuant to Oversight and Government Reform Committee 
rules, all witnesses will be sworn in before they testify. 
Please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. Please be seated, and let the record reflect 
that all witnesses answered in the affirmative.
    In order to allow time for discussion, we would appreciate 
if you would limit your oral testimony to 5 minutes. Your 
entire written statement will be part of the record.
    Assistant Secretary Council, you are recognized for 5 
minutes. Thank you for being here.

                       WITNESS STATEMENTS

                  STATEMENT OF LAVERNE COUNCIL

    Ms. Council. Thank you.
    Chairman Hurd and Coffman, Ranking Members Kelly and 
Kuster, and members of the House Oversight and Government 
Reform Subcommittee and Information Technology and the House 
Veteran Affairs Subcommittee. Thank you for the opportunity to 
appear before you today to discuss interoperability, electronic 
health records, cybersecurity, and the state of the Office of 
Information and Technology, or OI&T, at the Department of 
Veterans Affairs.
    I'm accompanied today by OI&T's lead for the Interagency 
Program Office, Deputy Director Brian Burns. Over the last 3-1/
2 months, I've had the privilege to be a part of VA, where we 
have the greatest mission in government: to care for the 
Nation's veterans.
    VA's Office of Information and Technology is at a critical 
inflection point. Persistent internal challenges exist in 
delivering IT services, and external pressures are compelling 
OI&T to change and adapt. OI&T supports each of VA's diverse 
lines of business, including the largest integrated healthcare 
system in the United States, a benefits processing organization 
equivalent to a medium-sized insurance company, one of the 
largest integrated memorial and cemetery organizations in the 
country, a court system, and many other components.
    I believe we can and must do better to deliver excellent 
health care and benefits to our veterans through world class 
technology, and I'm delighted to discuss our new OI&T strategy 
with you today.
    Our vision is to become a world class organization that 
provides a seamless unified veteran experience through the 
delivery of state-of-art technology. Our guiding principles are 
transparency, accountability, innovation, and teamwork. We will 
measure success, ensure accountability, invest in the 
capabilities of the OI&T employees and collaborate across VA to 
build trust.
    One of our key organizational changes is the establishment 
of an Enterprise Program Management Office or EPMO. The EPMO 
will ensure visibility and governance of all programs and 
projects. As we establish EPMO, we will be integrate our four 
largest programs first VistA Evolution, health data 
interoperability; the Veterans Benefit Management System, or 
VBMS; and Medical Appointment Scheduling System, or MASS. For 
VistA Evolution, I have tasked the program leads, David Waltman 
from VHA and Alan Constantian from OI&T to deliver a business 
case that explains measurable outcomes for the program. After 
reviewing the business case, Under Secretary for Health, Dr. 
David Shulkin and I will determine the next steps. The 
development of a business case will be the standard from all 
programs from their inception.
    Chairman Hurd, I agree, interoperability isn't just 
technology. It is clear to me that we need to establish a 
strong technical foundation through data visibility, 
accessibility, and interoperability. This is a precursor to the 
work happening in the IPO as well as improving the veteran 
experience. As you know, VA and DOD systems already share 
millions of health records. Having a veteran's complete health 
history from DOD and VA, as well as community providers, is 
critical to providing seamless, high-quality access to care and 
benefits.
    We will continue to work closely with the IPO and Office of 
the National Coordinator to ensure national standard codes are 
used when describing our health information. I think that VA 
and DOD together should be leaders in this area.
    When you think of data, you must also consider 
cybersecurity. As part of our overall strategy, our first area 
of focus is cybersecurity. We delivered an actionable far-
reaching cybersecurity strategy and implementation plan to 
Congress on September 28 of this year. OI&T is committed to 
protecting all veterans' information and VA data and limiting 
access only to those with proper authority. The strategy 
establishes an ambitious yet carefully crafted approach to 
cybersecurity and privacy protections. Our strategy includes 
taking immediate steps to address the material weakness and 
includes many efforts already underway and scheduled to 
complete within the next quarter.
    Chairman and ranking members, thank you again for the 
opportunity to discuss our new VA IT strategy with you. 
Throughout this transformation, our number one priority is 
always the veteran, by ensuring a safe and secure environment 
for their information as well as an overall improved experience 
with VA. I'm committed to seeing this strategy through and 
leaving behind a transformed OI&T when my term is over.
    I'm happy to take your questions at this time. Thank you.
    [Prepared statement of Ms. Council follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
        
    Mr. Hurd. Ms. Council, thank you for being here. I know 
you're pretty fresh to the job. You're stepping into a big 
role. I'm looking forward to working with you on this topic.
    Mr. Miller you are now recognized for 5 minutes.

               STATEMENT OF CHRISTOPHER A. MILLER

    Mr. Miller. Chairman Hurd, Ranking Member Kelly, Chairman 
Coffman, and Ranking Member Kuster, distinguished members of 
the committee, thank you for the opportunity to address you 
today on the state of information technology within the 
Department of Defense and our efforts to achieve 
interoperability with the Department of Veterans Affairs.
    I am honored to represent DOD as the secretary's program 
executive officer responsible for the Department's efforts to 
improve interoperability and modernize our electronic health 
record. Our servicemembers, veterans, retirees, and their 
families deserve innovating less than the best possible health 
care and services that DOD and VA can provide. DOD is committed 
to ensuring servicemembers and their families are ready to 
support operational mission requirements and ensuring 
continuity of care as members transition to veteran status.
    Our DOD healthcare providers have requested and need a 
modern system that can support increasing demands, including 
data sharing. To this end, DOD is committed to two equally 
important objectives, improving data interoperability with both 
VA and our private sector healthcare partners and successfully 
transitioning to a state of the market electronic health 
records that is interoperable with VA and the commercial 
healthcare systems used by TRICARE partners.
    Since October 2013, we have made significant progress in 
achieving both of these objectives. Our actions speak louder 
than our words and demonstrate our steadfast commitment. Today, 
DOD and VA share a significant amount of health data, more than 
any other two major health systems. Over the past 24 months, we 
have deployed four major interoperability software releases, 
conducted numerous test events, mapped more than a million 
terms to national standards, and deployed the system to over 
200 DOD and VA sites.
    Clinicians are currently able to use our existing software 
applications to view records of more than 7.4 million shared 
patients who have received care from both Departments. Both 
Departments' healthcare providers and VA claim adjudicators 
successfully accessed the system nearly a quarter million times 
per week. This data is available in realtime, and the number of 
records viewable by both Departments continues to increase.
    As a result of this progress, DOD will certify to Congress 
that it has complied with the Fiscal Year 2014 National Defense 
Authorization Act requirements for interoperability with the VA 
by the end of this month. Most importantly, we are getting a 
tremendous amount of feedback from our users in both 
Departments.
    On a parallel path, DOD's modernization effort is well 
under way. Our goal is a system for the future which is open 
and flexible so that it can easily adapt to meet changing 
requirements.
    After a rigorous and comprehensive evaluation of industry 
proposals, DOD awarded a contract without protest in July 2015 
to a team led by Leidos that includes 34 other partners. The 
contractor team will provide an off-the-shelf suite of products 
that is ONC certified, secure, interoperable, and meets our 
operational requirement. The system must support the full range 
of military operations to include health readiness, casualty 
care, humanitarian assistance, disaster response, and 
population health.
    As a result of this competitive acquisition strategy, DOD's 
lifecycle costs have been reduced from $16 billion the previous 
iEHR strategy to less than $9 billion today. We are on track to 
begin testing the system this coming winter to support our 
initial fielding in the Pacific Northwest.
    Through our close collaboration with the Office of National 
Coordinator for Health IT, we are aligning our modernization 
interoperability efforts with nationally recognized data 
standards and industry best practices. The adoption of these 
will ensure that the health data of our servicemembers and 
veterans is interoperable with the health systems of our 
private sector healthcare providers, which account for over 60 
percent of the care provided within the military health system.
    We have the opportunity to save time, save money, and most 
importantly, save lives. Our progress the past 24 months has 
been a matter of getting back to acquisition basics, getting 
the requirement right, thinking like a taxpayer, delivering on 
our promises, and developing our technical work force. We 
clearly understand that our mission is not complete. To remain 
successful, we must continue to stay focused, innovate, and 
hold ourselves to the highest standards of excellence.
    Chairman Hurd, Ranking Member Kelly, Chairman Coffman, and 
Ranking Member Kuster, thank you again for the opportunity to 
testify today. The Department greatly appreciates the Congress' 
continued interest and efforts to help us deliver the 
healthcare that our Nation's veterans, servicemembers, and 
their dependants deserve. The Department of Defense and our 
colleagues at the Department of Veterans Affairs will continue 
to work closely together in partnership with Congress to 
deliver the benefits and services to those who sacrifice so 
willingly for our Nation, whether it's on the battlefield, at 
home with their families, or after they have faithfully 
concluded their military service. Again, thank you for this 
opportunity, and I look forward to your questions.
    [Prepared statement of Mr. Miller follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Hurd. Mr. Miller, I appreciate you being here today.
    And now I'd like to recognize Mr. DeVries for 5 minutes for 
your opening statement.

                   STATEMENT OF DAVID DEVRIES

    Mr. DeVries. Good afternoon, Chairman Hurd, ranking 
members, distinguished members of both subcommittees. Thank you 
for the opportunity to testify here today on the Department's 
cybersecurity posture and our information technology in this 
very important topic called, ``electronic health record.'' I am 
a veteran. I still serve in today's Nation here because I care 
about the servicemember and our families and the commitment to 
the quality there for the care.
    I am Dave DeVries, the Department of Defense Principal 
Deputy Chief Information Officer. Simply put, the deputy DOD 
CIO. I share one imperative with the CIO, Mr. Terry Halvorsen, 
to ensure the Department has access to the information, the 
communication networks, the decision support tools needed to 
successfully execute while warfighting and business support 
missions of today.
    Today I'm going to talk to you briefly about some of our 
efforts underway to ensure that DOD can execute its missions in 
the face of increasingly cyber-aggressive threats and also how 
we're working with the government, industry, and international 
partners to accomplish our secure information sharing 
capabilities, our cybersecurity missions while improving our 
ability to share securely with both industry and the public.
    We are in the business of defense. That requires us to be 
integrated in almost every discipline you can think of, 
acquisitions, health, logistics, real estate, food, 
distribution, industry control systems, and many, many more. 
Every sector out there in the public side, we represent inside 
DOD and need to protect that information as well as share it 
securely.
    While our top goal is to deliver capabilities more 
effectively and efficiently, we also need to maximize security 
in a budget-constrained environment worldwide. Our cyber 
adversaries are agile, diverse, and sophisticated, and we must 
be able to maneuver in several worlds at unprecedented speeds 
to protect our Nation's assets.
    The Department's fiscal year 2016 IT budget request is 36.9 
billion. This request included funding for a broad variety of 
IT, ranging from DOD warfighting command-and-control 
communication system, our computing services; cybersecurity; 
enterprise services, like collaboration and electronic mail; 
and intelligence support systems; and business systems. These 
investments support mission critical operations. They must be 
delivered both on the battlefield and in an office environment.
    We will continue to focus attention on cybersecurity and 
take aggressive action to counter cyber threats to our networks 
and weapons systems. In today's networked world, this requires 
collaboration and cooperation of many partners, other 
government agencies, industry partners and allies to ensure we 
are mitigating these threats and vulnerabilities to our 
national security interests. You have my written comments as we 
prepared them before coming in here. I welcome the questions in 
our upcoming discussions. Thank you.
    [Prepared statement of Mr. DeVries follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
    Mr. Hurd. Thank you, sir.
    Director Melvin, you are now recognized for 5 minutes.

                 STATEMENT OF VALERIE C. MELVIN

    Ms. Melvin. Chairman Hurd and Coffman, Ranking Members 
Kelly and Kuster, and members of subcommittees, thank you for 
inviting me to this important discussion of VA's and DOD's 
progress toward developing interoperable electronic health 
records. We have been reviewing the Department's initiatives 
for many years, and this past August, as you mentioned, issued 
a report on their efforts to plan for and measure progress 
toward achieving interoperability. My remarks this afternoon 
summarize our findings from that report.
    As you've stressed, VA and DOD have been undertaking 
initiatives to exchange health information and increase 
interoperability for almost two decades. Among others, these 
have included initiatives to share viewable health data in 
their existing systems and link and share computable data 
between their repositories.
    As you've stated, the Department also took steps toward 
developing a single joint system and approach aimed at 
sidestepping challenges to achieving interoperability between 
their separate systems. However, while increased data sharing 
has occurred in various ways, the Departments did not follow 
through with developing a single system, and persistent 
management challenges over the years have hindered progress and 
elevated the uncertainty about when and how fully interoperable 
capabilities will be achieved.
    With this uncertainty, the National Defense Authorization 
Act for fiscal year 2014 established the two deadlines for VA 
and DOD to first ensure that all their health data complied 
with national standards and with computable and realtime by 
October 1, 2014, and second, to deploy, modernize, and fully 
interoperable electronic health records by December 2016. In 
response, the Departments mapped selected health data in their 
existing systems to national standards and began planning and 
working toward their implementation of separate modernization 
system--modernized systems.
    However, of significant concern is that the Departments 
have not identified outcome-oriented goals and metrics to 
clearly define what they aim to achieve from their 
interoperability efforts and the results and benefits 
anticipated.
    Such metrics can help in assessing the progress of the 
Department's efforts, identifying areas that need attention, 
and ensuring accountability for end results such as improved 
quality of care for veterans and servicemembers.
    Further, the Department's most recent decision to pursue 
separate interoperable systems rather than a single joint 
system adds to our concern. Taking separate paths to modernize 
their systems increases the risk that there will not be the 
effective collaboration and coordination needed to establish 
and convey a joint position on what fully interoperable 
capabilities will look like and how and when they will be 
achieved.
    Over the long history of the Department's efforts, reaching 
such a state of clarity has been elusive and is further 
evidence of the need for outcome-oriented goals and metrics to 
help gauge and encourage progress on this latest effort.
    DOD and VA agreed with our recommendation that they develop 
such measures, and we look forward to following their actions 
to do so. Nevertheless, the Department's longstanding attempts 
to achieve interoperable electronic health records is an 
example of the larger problem with ineffective management of IT 
projects across the Federal Government as we have highlighted 
in our 2015 high-risk update.
    The history of these Departments' efforts also highlights 
the importance of continued congressional oversight as you are 
providing by holding this hearing today. VA and DOD must now do 
their part to more efficiently and effectively bring this 
challenging endeavor to a successful outcome. Recommendations 
that we and others have made, along with the important IT 
acquisition reform provisions outlined in FITARA, should give 
the Departments a more clear basis for demonstrating further 
success. This concludes my oral statement, and I would be 
pleased to respond to your questions.
    [Prepared statement of Ms. Melvin follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
       
    Mr. Coffman. [presiding.] All right. Thank you, Ms. Melvin. 
I'll begin with questions.
    Ms. Council, as required by the NDAA of 2014, all VistA 
data was to be in a compliant format established by the Office 
of the National Coordinator for Health Information Technology, 
or the ONC, but VA stated it would not certify until later in 
2015. Has VA certified its compliance to the standard?
    Ms. Council. You want to take that, Brian?
    Mr. Burns. Yeah.
    Mr. Coffman. Mr. Burns
    Ms. Council. Yes, I'll have Mr. Brian respond because I 
want to make sure we're precise on this answer.
    Mr. Coffman. Okay.
    Mr. Burns. At this point, we have not certified to the 2014 
requirement, the October 1, 2014, requirement. The approach we 
took is we identified 25 domains. From those 25 domains, we 
prioritized those. The first seven we looked at were the most 
frequently used, the most high volume, and what we consider the 
most relevant terms. Those we did do data mapping to, and then 
we continued to map from there, and we're still continuing to 
do that process
    As we go forward, we also do updates to each one of those 
respective domains to make sure that any additional terms that 
come in are also mapped. Those then are used in data maps that 
go into the capability of sharing the information with JLV. So, 
at this point, we have data maps for most of the sets. We have 
partial mapping for most of the sets at this point
    Mr. Coffman. Okay. Mr. Miller, nearly 6 years after a 2010 
GAO report discussed the need for VA and DOD to address 
unstructured data, what has the IPO done to accomplish the 
interoperability of unstructured data or the development of a 
national standard?
    Mr. Miller. Sir, I would offer a couple of things, sir. We 
do have a dedicated IPO, Dr. Lauren Thompson. She reported in 
on the board in May. For sometime I was wearing two hats. I'm 
no longer wearing two hats. I think that's reflective of our 
commitment to the IPO and the work that they do.
    With regards to national standards, you heard in my opening 
comments, our strategy has been to partner with the Office of 
National Coordinator for Health IT in identifying those areas 
and what standards we need to have and to leverage things like 
ONC certification and then to bring those forward between the 
two Departments and let's determine jointly what those 
standards needs to be and then promulgate those back out to 
both Departments.
    I think you will see on both the DOD and the VA, those 
standards are incorporated. If you were to go look inside the 
DOD's acquisition program, you would see where those were 
required as part of our modernization. They are part of our 
technical package. Those things are currently flowing back to 
both Departments.
    The IPO is basically responsible for working between the 
two Departments, providing technical leadership to make sure 
that those standards apply, and then--and bringing things back 
to the Office of National Coordinator where we need refined 
standards and improvements in standard.
    Just recently, the IPO took a very strong leadership role 
in looking at things like the CCVA document, which is a 
consolidated document that provides the transition of care 
within the commercial side that DOD and VA are both using as 
part of our exchange with our commercial providers, and so 
those are the kinds of activities where the IPO is taking 
strong technical leadership and helping us understand what the 
appropriate national standards are.
    I think, as everybody's highlighted today, the national 
standards piece is much bigger than its DOD and VA, and we need 
to have a strong collaboration with the leadership of HHS.
    Mr. Coffman. Ms. Melvin, in February 2014, GAO reported 
that VA and DOD failed to correctly implement the IPO and 
further noted the diminished role the IPO plays between VA and 
DOD. Considering this finding, what purpose does the IPO serve 
in its current state, and similarly, is there a need for the 
IPO at all?
    Ms. Melvin. I would like to start by saying that the IPO 
was established by the National Defense Authorization Act for 
2008, so it has a specific function in statute to be the single 
point of accountability for VA and DOD achieving the electronic 
health record.
    Several of our reports, in fact, have noted that the 
position of the office has not been specific to or as connected 
to the overall function for which it was assigned. We have seen 
it having a limited role in the Department's current efforts 
over time. It's been what I would describe as more of an 
evolving role, and it's one that it is reasonable that one 
would question its current responsibilities and whether it 
should exist.
    Having said that, the IPO is currently responsible for 
developing the national standards or at least identifying the 
national standards that VA and DOD ought to adhere to, so they 
do have an important function. I think the important thing 
about it is it must be clear what the role of that office is 
going to be. If it's not going to be at the level of a role of 
authority, a single accountability office for authority, then 
it is important for the agencies and for Congress to determine 
what their role should be.
    Mr. Coffman. Thank you. Ms. Kelly, you are now recognized 
for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Miller, why is it important that your Department first 
ensure that all healthcare data comply with national standards?
    Mr. Miller. Because, ma'am, as we've highlighted today, our 
care is provided in a number of different settings. In the case 
of DOD, more than 60 percent of our care is provided out in the 
market through our TRICARE contracts, and the way that we get 
the ability to really share and use information is by adopting 
these national standards.
    And I think it's important that we all recognize that both 
DOD and VA were well ahead of where the larger national effort 
was that started really in the HITECH Act in 2008, 2009, and so 
part of our struggle has been taking a lot of legacy data that 
we were leaders in and then working towards and getting on 
board with these national standards that have fairly rapidly 
evolved over the past few years as part of our EHR adoption.
    But simply put, ma'am, DOD generates veterans. Those 
veterans need to have seamless care no matter where they go, 
and the way that we make sure that there is a common meaning 
and common understanding of that information is by all of us 
agreeing at the national level to what those standards are. The 
challenge is there's a lot of them, and the other challenge is 
that we all have to agree at a little bit lower level than just 
adopting a top level standard. There have to be some lower 
level agreement about what we mean with certain standards, and 
so again, that reinforces where the IPO fits, because the IPO 
provides a critical linkage between our 2 Departments and the 
Office of National Coordinator because we provide a lot of 
feedback.
    We do believe we can be on the leading edge in many of 
these efforts, and it's that IPO function that really provides 
the strong leadership role to make sure that we implement the 
national standards correctly, ma'am.
    Ms. Kelly. Well, Mr. Miller and Ms. Council, can you tell 
me when your respective Departments will be able to certified 
that the data complies with national standards? When's your 
goal? What are you looking at?
    Mr. Miller. So ma'am, I'll state from DOD, I just reviewed 
our letter for certification. I do want to highlight one of the 
reasons why DOD is a little bit late here is that the NDAA, 
which I have a copy of, if you really want to look at it, it 
refers only to DOD's AHLTA data. AHLTA data is our outpatient 
data, and the reason why I want to make a second and explain 
this is, when we met with our functionals--and I'm here to tell 
you, I don't measure success for DOD. I measure success by what 
our users say, and so when we started down this journey to do 
this data mapping and understand what they wanted to be able to 
access in an integrated view, as the NDAA required, they came 
back and said it's much more than your outpatient data. It's 
your inpatient data. It's your data from the private sector. 
It's the data from in theater and our theater systems, and so 
because of that, DOD took the last year to integrate much more 
than what the NDAA required because I felt like that was the 
right thing to do.
    And so I will defend, you know, the time we took because it 
is what our functional users really asked for, and so along 
with making that data available, we also had to work through a 
series of data maps, and over the last year, we went through 
four iterative builds. Those builds were reviewed by subject 
matter experts in the DOD as well as the IPO before we put them 
in production, and so those things took a little time.
    I am here to say that some of this stuff is incredibly 
complicated. We are dealing with a large number of terms, and 
it was important that we did this right. The last thing I want 
to do, as an acquisition person, is put a bad tool in my users 
hands because they will not like it. They will get turned off 
from it. And we have been very careful about how we've deployed 
the things and how we have increased access. And I'm here to 
tell you today, our results are pretty staggering when you look 
at the demands and the feedback we're getting for the use of 
this information.
    It is not about JLV. What really JLV provides is a view 
into the data that's flowing between the two Departments. In 
the reality what will happen is, is that the VA--any of their 
systems will use that data, whether it's eHMP, their VistA 
follow-ons, and they will use it however it best makes sense 
within their healthcare setting. The same in DOD.
    We are working right now to make you sure that data coming 
back from VA is provided to our new system as part of our 
integration and testing over the next year, so thank you, 
ma'am.
    Ms. Kelly. Ms. Council.
    Ms. Council. Yes. As far as our data is concerned and 
spending some team with the team, certainly we receive the data 
from DOD, and then we have to map it to the standards to our 
system. The team says that we should be well on time to certify 
in 2016, but the veteran--the VA issue around data is much 
broader than that. A veteran has more than just health data 
that we're concerned about. It's general, Active Duty, other 
sets of data that we'll be bringing together.
    One of the key factors of our new strategy is starting and 
establishing a strong data management capability to give us a 
wholistic look at the veteran and be able to interchange and 
engage with that veteran in a very different way than we do 
today. So for the VA, our look is not just the health--we will 
certify that in 2016--but broader so that we can change the 
veteran's experience by having a holistic look at their 
information that's important and germane to the benefits, the 
healthcare, as well as the end care that they receive.
    Ms. Kelly. So can you two currently exchange patient health 
data between one another?
    Ms. Council. We currently do today exchange health 
information between each other.
    Ms. Kelly. You can do that, and do all users have access to 
interoperable electronic health records system?
    Mr. Burns. At this point, we have, depending on the system, 
we have users that use the existing system, CPRS. We also, 
through the viewers, we are adding users on a regular basis. 
This time last year we had--with JLV, we had 600 users. We now 
have up to 19,000 users, and we continue to add more users 
every single week in doing that. That's just one tool.
    That said, there's other tools that are accessed to in our 
Web-based solutions as we move forward and even our follow-on 
modernization, so we continue to add users on a regular basis. 
This year also we added VBA, Veterans Benefits Administration, 
users, which was a significant help to help in getting them to 
be able to look at the records in addition just from the health 
standpoint.
    Ms. Kelly. Thank you. I'm out of time.
    I yield back.
    Mr. Coffman. Thank you, Ms. Kelly.
    Mr. Farenthold of Texas, you are now recognized for 5 
minutes.
    Mr. Farenthold. Thank you very much, and I'd like to follow 
up on that a little bit, Mr. Burns, if you will. You say you've 
added 19,000 users in a viewer. I mean, is that--that really 
isn't interoperability where everybody can access the data that 
needs to access the data and doctors can and nurses can input 
the data. I mean, that's just, okay, I'm able to look at it, 
right?
    Mr. Burns. With the current--with JLV, it is a viewer, so 
you're able to look at the data. The one thing that we did add 
through that is that we have where data is mapped. We can then 
demonstrate and show the mapping of the data in addition to the 
original data, so----
    Mr. Farenthold. That isn't where I wanted to go, but I 
wanted----
    Mr. Burns. Okay.
    Mr. Farenthold. --to follow up on that question.
    Ms. Council, the Secretary of the VA, Mr. McDonald was 
recently in south Texas and said, you know, one of reasons it 
was such a slow-paced system is some of legacy systems are 
still operating in the COBOL programming language, I mean, 
1960s technology. You know, it just seems like there's not a 
focus there.
    You spoke a little bit about, you know, making the business 
case for what products in IT that you work on. You know, can 
you tell me a little bit what the business case is? To me, the 
number one focus should not be the business case but should be 
providing quality service to veterans. I mean, I could make a 
business case for making veterans wait months for service so we 
don't have to make more doctors. I mean, what constitutes 
business case?
    Ms. Council. It really gets to the point that was raised 
earlier. How do we measure success? How do we know we're 
actually accomplishing what we said we would accomplish, and 
how do we know we are spending our time and monies on the right 
things to enable help for the veteran? So that's what we mean 
by business case.
    Mr. Farenthold. All right. So let's look at what's 
happening now. There was just a report out today that in San 
Antonio, just north of the district I represent, that we have 
the highest wait times since May. We are up to 12,000 veterans 
waiting over 30 days to get care. That's the worst in the 
entire VA.
    I mean, I thought we were trying to address these wait 
times. Shouldn't that be--the wait times be one of the top 
priorities of getting veterans the care that they need in a 
timely fashion?
    Ms. Council. It certainly should, sir. And at the end of 
the day, that's what the MASS project is scheduled--set 
scheduled so we can really handle the capacity that we have. It 
is our responsibility to ensure that we change the veteran's 
experience at the VA, and my intent as leading the IT 
organization is to modernize this organization and gets us to 
make the decisions that we need to make to focus on the right 
things.
    Mr. Farenthold. We've looked at--we started talking about 
this in Congress in 2008, 2009. I just--you know, you look at 
2008, 2009, Uber didn't exist. They've come up with a complete 
data infrastructure of the world's largest taxi service without 
a single driver that can be wherever you--you know, in most 
cities, can pick you up in a matter of minutes.
    Square technologies has come online where you can plug 
something into your iPad and do credit card. Pinterest wasn't 
in existence in 2007. I mean, the technology can be done in a 
timely fashion. Is there a culture problem? What is the problem 
within the VA that makes IT such a struggle?
    Ms. Council. I think part of the issue is many of the 
examples you gave are independents, and they're not trying to 
enable an enterprise. They're not trying to enable H.R. And 
finance and all the other things that come with it. But I also 
say part of it has been, frankly, making some hard decisions 
and holding people accountable to achieve things we said we 
will do and making sure we have focus.
    We cannot do everything. We've got to do the right things. 
So when we start a program, we have to complete a program. We 
need to be relentless in our execution, and we have to focus. 
And the bottom line is, the team has not done that. We will do 
that, and that's part of our current new strategy.
    Mr. Farenthold. And you know, one of the things Mr. Miller 
said, he doesn't want to deploy a bad app to turn people off, 
but part of any IT system--and I remember this back in the 
1980s and 1990s when I was a computer consultant. You had to 
get buy-in from your folks that this was going to make their 
jobs easier and that it was going to be good for them.
    It sounds like that's one of the struggles you're talking 
about. I mean, this is the 21st century. In almost every case, 
especially in the private sector, you see the implementation of 
IT really greatly improve efficiency. Now, some people may 
argue they have to work harder with fewer people with it, but 
the level of customer service that people have come to expect 
as a result of the technology revolution is higher. How can the 
folks within the VA not get that?
    Ms. Council. You are 100 percent correct. At the end of the 
day, our opportunity is to bring the system forward and do it 
in a way that's going to change the environment for the 
veteran, and up to this point, we have not had core portfolios 
for our various business groups. We will be putting in, as part 
of this strategy, new account managers that actually work 
within the business, with customer relationship people within 
the business to create portfolio and a ranked stack against the 
things that need to get done to change this perspective.
    If you don't have the business perspective working in 
conjunction with IT, you don't end up with that kind of system. 
It's going to make a difference, and so that's where we're 
focussing.
    Mr. Farenthold. Well, I see my time has expired. I would 
like to take 1 second and urge you to maybe take some lessons 
from the private sector and develop a entrepreneurial spirit 
within the VA and the IT department to get her done. Thank you.
    Mr. Coffman. Ms. Kuster of New Hampshire.
    Ms. Kuster. Thank you very much. My comments and questions 
are focused on the VA.
    Ms. Council and Mr. Burns, Ms. Council just talked about 
hard decisions and focus. Some have said, and in fact, the 
recent independent assessment found, that the VistA program was 
in danger of becoming obsolete.
    My question is: Are we at the point where we just can't 
keep trying to re-jigger the technology, but that we would have 
better outcomes. And you're focused on the different business 
activities. And one that I am very focused on is the scheduling 
to bring down the wait times. You've got the health records. 
We've now got outside providers.
    Could you just give me, if you have an opinion on this, 
since you've arrived. Or, Mr. Burns, if you've been around 
longer. Do you feel that maybe we're at the point where we 
should be considering more an approach from the bottom up 
rather than trying to change what we're currently working with?
    Ms. Council. I come from the private industry. I've spent 
30 years in private industry. So this is my first foray into 
any kind of government appointment. And what I look for and 
what I really want to understand with any large business 
investment or any system investment, like a VistA Evolution, is 
what do we expect to be the outcome? What are we really trying 
to play for, and what do we think that it's going to do for us, 
not just now, but also in the future.
    So to answer your question, that is the reason why Dr. 
Shulkin and I requested the business case. We wanted to have a 
fact-based conversation about what the right next steps should 
be with VistA. We didn't want to take it from the cuff. We 
didn't want to take it from pulling various data. We really 
wanted to go into understanding where we are today, where we're 
hoping to go, and will that take us where we need to go for the 
veteran in the future? He and I will be looking at that case 
and spending a concerted amount of time--the timing just didn't 
work out, but it's this week--to really decide on those core 
next steps. It's the right thing to do. It's the coherent thing 
to do. But we want to do it based on having real facts behind 
us and making sure that we're making the right decision for the 
veterans long term.
    At the end of the day, VistA is a clinical, focused system. 
It is focused on the patient. And it has enabled that 
capability to really drive many breakthroughs. What we've got 
to figure out is what opportunities do we have to continue with 
it as a backbone, and should we be moving with different levels 
of technology that we haven't used before, and thinking about 
it differently architecturally, and thinking about it 
differently, how the veterans should engage with it, and how it 
should engage with the clinician?
    We are leveraging the program managers' Mr. Waltman's and 
Mr. Costantian's business report with Dr. Shulkin and myself, 
and we will make a decision.
    Ms. Kuster. Great. Well, I hope you will keep us apprised. 
But I think we will be well served by that analysis.
    Sometimes we talk about this interoperability, and I wonder 
whether we are agreeing on what it is that we are trying to 
describe. It seems to me that there are three different levels: 
The foundational is just the very basic, where you're looking 
at the page on the screen and it doesn't allow for the 
interpretation of the data, or the sharing of the data; 
structural, the intermediate level, defining the structure or 
format of the exchange; and then semantic, the highest level, 
the ability to exchange and use the exchange information. And I 
know going forward--and certainly the practitioners that I've 
spoken to--the providers in the VA want to be able to use the 
data for research, for trends. We have a terrible opioid 
addiction problem going on. Can we look at the population, 
learn from the best practices?
    Could you just comment on where you feel the VA is right 
now--what level we are at, and where we might expect to be a 
year from now?
    Ms. Council. Sure. Actually, Brian and I have been talking 
about this a lot. So I'm going to give him an opportunity to 
answer your question.
    Mr. Burns. In the terms that you laid out, first of all, 
the first level is foundational, or another way of saying it is 
technical; we do technical exchange
    day-to-day. And that's is the fundamental basic level. So 
we're pretty good there.
    Ms. Kuster. And that's happening right now throughout the 
VA?
    Mr. Burns. That is happening throughout the VA. It's been 
happening actually for over a decade of transferring data. 
Speaking of transmission of data, it is showing the data as is, 
or, to some degree, with the standards.
    The next level, the intermediate level, gets more into how 
do you begin to use the data. And that's where we're focusing, 
at least from the IPO perspective of what are the use cases; 
how do we actually want to use that data, and what is 
pertinent? What are the key components? What are the key 
elements? And then how much of that needs to be beyond the 
technical level?
    So we're focusing on that and bringing in the subject 
matter experts from DOD and VA to have those conversations. 
That's a continuing, evolving process.
    The highest level, as you mentioned, semantic--or another 
way of saying it is process--that is really looking at the work 
flows. And that's going across the organizations. That's a much 
more future issue. And candidly, that's an issue that even ONC 
is working with, with a strategic plan of how do we get from 
the current sharing data at the rudimentary levels moving 
forward.
    So to answer your question, I think from a technical 
standpoint, or foundational standpoint, we are really close. We 
are there. If we get into the intermediate level, we have 
pieces of it that we actually can do today. And ultimately, we 
are trying to go with the modernization beyond just the NDAA, 
is really to have to monitor our system where we get the work 
flows and the semantics down that it's
    machine-to-machine, and you can do the trend analysis and 
you do the look-at-the-patient data far better to make 
decisions real quick, much quicker, and actually seeing more 
patients as we go.
    And that's fundamentally, too, with the VistA Evolution 
solution, where we are really transforming to look at patient-
centric and team-centric and data-centric approaches to the 
information far beyond what we have traditionally done in our 
existing systems.
    Ms. Kuster. Thank you very much. And I apologize for going 
over. Thank you.
    Mr. Coffman. Mr. Lamborn of Colorado, you're now recognized 
for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. I want to thank both 
the chairmen for having this meeting today. This is a huge, 
monumental, massive project. And I have to ask a preliminary--I 
want to back up a step--a preliminary question. So for someone 
from the VA and someone from DOD, as you work on this 
interoperability, and I agree with the GAO conclusion, there 
has to be goals and metrics as you do this. But let me back up 
and ask about cybersecurity.
    Can you assure us that, as you build this forward, that 
hackers can't come in like they did at OPM, and access medical 
records of our veterans or of our active duty military?
    Ms. Council. What I will tell you is that our--everything 
that we're doing around our new cyber strategy is what we also 
currently do with our defense in-depth, is to protect that data 
at all cost. Our data is not only in the system, but our data 
is also on paper. And so ensuring that we're educating the 
workforce, that we're being diligent about our information and 
where we leave it, how we mail it, what we do with it, are all 
a part of what OI&T has to do with ensuring that we keep the 
veterans safe.
    When you look at where we went with our cybersecurity 
strategy, it's the most holistic strategy that we have ever had 
in our history. It is focused on eight key domains, including 
medical cyber. And the whole focus is no one on a team ever 
wants to happen to a veteran what happened to them through OPM. 
So that is our focus, that's our key, and that's our mission.
    Mr. Lamborn. Thank you. Mr. Miller, or DeVries?
    Mr. DeVries. I would just like to add on to that. The 
cybersecurity is one very important aspect of it, but just as 
we talked about the standards for the health record that's 
based on the ONC model, all of us in the government are 
conforming to the same security standards set up by NIST that 
we all participate in.
    It's important that we have those common standards and that 
we all conform to them and rigorously enforce the adoption of 
those. So that's the biggest push. VA has been doing the same 
thing. DOD is doing it. We have been pushing now the 
cybersecurity aspect and the need to conform to the standards 
that have been put out and then measure it by leadership.
    Just recently, DOD has put out its cybersecurity. We have 
published that. We have not come up with a common
    scorecard. With that whole aspect is, no matter what the 
mission area is--and medical, it's just one of those mission 
areas for us--it must be about protecting the identity of the 
person, protecting the data, where it is in storage, but also 
in transport, and then how it's being consumed.
    Mr. Lamborn. Okay. Well, thank you both.
    Ms. Council or Mr. Burns, VA interoperability, just among 
yourselves, is a concern of mine. Leaving aside DOD. There are 
1,700 points of healthcare providers among the VA nationwide. 
What is the interoperability, just among VA health care 
providers?
    Ms. Council. That is the core part of why we are putting a 
data management process in place.
    Today, when you look at the OI&T organization, we actually 
have the best opportunity to bring the information together on 
the veteran's behalf. So you have the health side. And, of 
course, we have to be able to work with our community 
providers. But, again, remember, there is a whole benefit level 
side, and many veterans that don't use the health side, that 
also creates a level of data and information for the veteran 
and to their end.
    And so our issue, and our opportunity, is really to bring 
together the entirety of that set of information and start to 
leverage it on behalf of the veteran and sharing with the 
veteran what the opportunities are, where the benefit 
opportunities are, as well as what they should be thinking of 
in relationship to their health. That is core to this strategy. 
We've got to do it. And today, health data sort of sits 
separately from the benefits data. And that's not appropriate 
for the veteran.
    Mr. Lamborn. So, if someone moves from Portland, Maine, to 
San Diego, a veteran, their records go with them electronically 
today?
    Ms. Council. They do not go with them electronically today. 
That is what we are working on.
    Mr. Lamborn. Okay. Because, obviously, that has to happen 
before you can interact with the DOD, and vice versa.
    Ms. Council. Well, interacting with the DOD, information is 
from active duty to becoming a veteran on active duty. The 
issue with topography and moving from one location to another 
is making sure that another location can take that information 
and use it.
    So unless the veteran ports that information, or we send 
that information on their behalf, it won't be there. We can 
send the information, but the key is we want to be in a 
situation where the information is everywhere the veteran is, 
regardless of their location. And that's what we're working 
toward.
    Mr. Lamborn. Okay. Thank you.
    Mr. Coffman. Mr. Lieu of California, you are now recognized 
for 5 minutes.
    Mr. Lieu. Thank you.
    Over 45 years ago, the United States of America sent a 
human being to the Moon and brought that person back. The DOD 
and VA can certainly have interoperable health records. The 
fact that you haven't been able to do it for nearly two decades 
is not excusable. There's a failure of prior leadership at the 
VA and the DOD. And I believe what compounds this is a decision 
made in 2013 for both agencies to now pursue separate 
modernizations. I think that's a ridiculous decision.
    And the GAO, in fact, has noted that the 2013 decision to 
pursue separate modernization rather than a single joint system 
indicates that achieving interoperability will be an ongoing 
concern for years to come.
    So what I want to know is, why can't you all just pick one 
system, whether it's a DOD system, or the VA system, and 
implement it? Why do you have to pursue two separate 
modernizations? I don't understand that.
    Mr. Miller. So my first reaction is I think it's important 
we understand that the two departments have different 
healthcare missions. I think----
    Mr. Lieu. But you're not customer-focused, you're not 
focused on taking care of the active-duty person?
    Mr. Miller. But I'm worried about making sure it works on a 
submarine at beyond periscope depth; I'm worried about it 
working in Afghanistan on SATCOM; I'm worried about it taking 
care of children. I think it's important that we do share a 
common veterans population, but I think we also need to 
recognize that the two departments do have two different 
organizational missions when it comes to healthcare delivery.
    Mr. Lieu. Are your systems lesser systems? Are they more 
basic because they've got to work on a submarine? Are they not 
as robust?
    Mr. Miller. I wouldn't say they're more basic. I think we 
have different operating environments. And so, when you're 
taking care of veterans in the United States CONUS, and you 
have the ability to do certain things, that environment does 
not exist in theater for our people that are taking care of our 
soldiers, sailors, airmen, and marines that go in harm's way.
    So I think we have to recognize they're a different 
operating environment. Additionally----
    Mr. Lieu. Okay. So if your system can work in a submarine--
let me ask the VA: Why don't you just take their system? If it 
works on a submarine, it's going to work in your VA hospital. 
Why don't you just use that system?
    Ms. Council. I can't speak for what decisions were made in 
2013, but I certainly can say that our clinical capabilities 
and what we have to do for the veteran from the time they 
become a veteran to the time that they leave this Earth is a 
much more holistic calling. And for us, it is about the total 
health and capability of that veteran, and for us managing that 
care of that veteran during that time.
    It is a different transaction, I think, is what Mr. Miller 
is getting to. The timing of that transaction, our situation, 
our alignment, is a lifelong alignment. And so our decision 
base probably would not work with the level of transactional 
focus that they would have.
    Mr. Lieu. So you're saying that when the two Secretaries in 
2011 said you all could have a single joint system, that they 
were just wrong?
    Ms. Council. I have no idea what the requirements were.
    Mr. Lieu. Now, let me ask you, do any private sector 
hospitals use VistA?
    Ms. Council. Not that I'm aware of, sir, inside the United 
States. Outside the United States, yes.
    Mr. Lieu. Okay. And do any private sector hospitals use 
your DOD system that also works on submarines?
    Mr. Miller. Yes, sir. It's one of the largest used in the 
United States today.
    Mr. Lieu. Okay. A question about the viewer that you all 
are talking about. Can you search on this viewer for terms, or 
anything else, or is it just a viewer? Interoperable viewer?
    Mr. Miller. I wish we could give you a demo. I think it 
would explain a lot here. I think--when you think about health 
care, a lot of the information that your providers or our 
providers are accessing is just information they're 
referencing. Right. The decision's going to get documented in 
their primary care system. But when you think about this viewer 
that we've been working together on--oh, by the way, it's been 
jointly done between the two departments--you can configure 
your displays, you can search for VA patients, you can search 
for DOD patients.
    Mr. Lieu. Can you search for, I don't know, blood test 
results, or for----
    Mr. Miller. So if you're talking about getting down to a 
lower level of search capability, that is one of the things 
that we're working on. Right now, we've been asked to be able 
to show all those different domains. And now we're taking a 
look at the next level, which would be lower level search 
capabilities within those domains.
    Mr. Lieu. What can you currently search for?
    Mr. Miller. When you bring up--it would be easier to 
display it. When you bring up the patient, it actually shows 
you all their information, so----
    Mr. Lieu. And can you search for something in that 
document?
    Mr. Miller. Right. So it's not like you're doing business--
deep business analytics through the tool. The tool basically 
presents an integrated record.
    Mr. Lieu. Is there any difference between that and someone 
handing you a Xerox of the file?
    Mr. Miller. Absolutely.
    Mr. Lieu. Because you can search for things.
    Mr. Miller. Right. You can search for things. You can 
configure only what you want to see. So if there's a module you 
care about, or that you don't want to see, depending on your 
role, whether you're an ED doctor or you're an outpatient 
doctor, you can configure that view.
    Mr. Lieu. My time is up, so let me just conclude. I believe 
that two separate modernizations are a mistake. I think that 
DOD should just take the VistA system and make it applicable on 
submarines. It shouldn't be that hard.
    I yield back.
    Mr. Coffman. Thank you, Mr. Lieu.
    Mr. Walker from North Carolina, you're now recognized for 5 
minutes.
    Mr. Walker. Thank you, Mr. Chairman, and thank you to the 
witness panel. I appreciate your time in being here today and 
sharing your thoughts and the information that's so crucial to 
this hearing.
    As part of the Cloud Computing Caucus, I have got a few 
questions from that particular perspective in the world of 
cyber arena that we are entering in. And let me start with Mr. 
DeVries, and then maybe we'll come back to Mr. Miller.
    How are the VA and the Department of Defense taking 
advantage of these commercial cloud services to streamline the 
EHR, the electronic health record, interoperability, and then 
reduce cost? It's a two-part question there. First, how are we 
doing that? And how do you perceive it to reduce the cost?
    Mr. DeVries. I think it's important to lay out where we are 
today. Today, the Department of Defense health records system, 
the medical records themselves, sit in a centralized data 
repository that allows us to have access to it globally down to 
the submarine, as Chris talked about there.
    We are moving aggressively now into the commercial 
environment. The DHMSM contract that we talked about here in 
the opening statements, that's on the street. We're 
aggressively now looking at where are we going to put the 
medical records, and I will let Mr. Miller talk more about 
that. But we have laid open, through the Federal standards as 
well as inside DOD, to grossly pursue, if you meet the security 
requirements and standards, then let's go ahead with the most 
economic and feasible way of doing it. It may not be a cloud, 
but it may be a commercially-provided data storage.
    Mr. Walker. Mr. Miller?
    Mr. Miller. So as part of our modernization strategy, I 
would tell everyone that we're trying to take advantage of 
those emerging technologies because we know it'll simplify 
things and allow us to accelerate our deployment.
    So if I were to go back to our previous systems, we would 
be installing software and things inside of our hospitals. 
Well, today--and I think you will see this if you go to any 
commercial health care provider--really, you don't provide 
anything to the hospital anymore. That system is basically 
hosted centrally somewhere, whether in a data center, a cloud, 
or part of a managed service, and basically, you just have to 
have a network connection and a device that can support it, 
just like your smartphone or something else. And that's the 
same strategy we're pursuing.
    Mr. Walker. I'm aware of how it works. But my question is--
I hear you say future tense, we are pursuing. Are there action 
steps that we're taking?
    Mr. Miller. Absolutely, sir. The proposals that we 
evaluated all banked on that technology being a key enabler. 
And so as part of our testing here in a couple of months, we 
will be testing how well that works. And as part of our 
deployment, that's our hosting strategy that we're currently 
under the process of finalizing. But our hosting strategy will 
be centrally done so that we can take advantage of those 
technologies.
    Mr. Walker. I appreciate the timeline there. Let me ask 
this question as well: If agencies that have sensitive 
information, such as the Health and Human Services Department, 
can leverage commercial cloud services, can I ask, then, why 
isn't the VA?
    Ms. Council, then I will come back to Mr. Miller.
    Ms. Council. Yes. Fundamentally, that is where we're moving 
to. Part of our new strategy is a buy first and looking at the 
platform.
    Initially, when I first arrived, I met with the inspector 
general to understand what their concerns were around us using 
the cloud. I also looked at our FISMA posture around our data. 
We had ranked all of our data FISMA-high. And a cloud 
environment, that is incredibly difficult to be in a FISMA-high 
platform, and use the cloud. We have reassessed that and re-
looked at our policy so that we can move to the cloud.
    In addition, our electronic health management platform, 
which is the platform that is being placed on top of VistA, 
basically prepares us to move to the cloud. It moves the data 
into a new platform. So it'll be much more fungible and move us 
at a location. And we are currently now looking at key 
applications and virtualization with cloud technology.
    Mr. Walker. Mr. Miller, if I have time, I will come back. 
But Ms. Melvin, I do have a question for you, making sure that 
I am crystal clear on this. What is the statutory deadline for 
deploying modernized electronic health records software with 
interoperability?
    Ms. Melvin. The deadline that we spoke to in our report was 
December 31, 2016. That was based on what the 2014 National 
Defense Authorization Act is currently calling for.
    Mr. Walker. And that's a self-imposed deadline?
    Ms. Melvin. That's the deadline that is called for in the 
Act.
    Mr. Walker. All right. And you feel good that you are on 
track?
    Ms. Melvin. Well, from my--from GAO's perspective, our 
review looked at that and we found that through the plans that 
both VA and DOD provided to us, no, they are not on track to 
meet the 2016 deadline. They are in the process of implementing 
capabilities. They do have initial capabilities I know within 
the departments.
    Mr. Walker. I'm going to cut you off. That's my concern. We 
have a deadline, and we are here and we're working towards 
that. But my time has expired. I will throw it at Mr. Miller, 
if you want to respond to that, and then I'll yield back to the 
chairman.
    Mr. Miller. Yes, I would just highlight that the NDAA was 
silent about what deployment actually meant. And I think, based 
on any industry best practice, there is no way physically 
possible for us to take a 2014 NDAA and fully deploy it within 
the Department of Defense at over 1,200 locations in that 
timeline. I have to go to ships. I have to go in theater. I 
have to go around the world.
    And so we have provided numerous feedback to the Armed 
Services Committee. They understand our plan. We met all their 
NDAA requirements. We got our funding restrictions lifted. They 
understand that. I think it's important that--I understand the 
desire to go faster, but there is reality in some of these. We 
are talking laws of physics about how fast we can modernize 
this system within the Department of Defense. Because it is 
much more than just documentation. It drives our scheduling, it 
drives our registration, it drives our people engagement. It is 
a fundamental business transformation about how we do business. 
It not simply a small app that you will have on your smartphone 
that has to go to a lot of places.
    So we need to be incredibly smart here. This is not 
something we should rush to. And so I understand the GAO 
report, but I think that the language, as written, was not 
clear about what deployment actually meant, sir.
    Mr. Coffman. Mr. O'Rourke of Texas, you're now recognized 
for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I have yet to hear a compelling answer to Mr. Lieu's 
questions about why we can't unify within a single system. I 
understand the system has to run on submarines, I understand 
that within the VA we are taking care of veterans from the 
point at which they transition out of active duty service 
until, as you said, Secretary Council, they leave this Earth. 
But I think the fundamentals of the system seem to be basic 
enough. And given the leverage that you two departments have as 
the two largest departments within the Federal bureaucracy, 
there's got to be a way that you can figure this out.
    Ms. Melvin, has the GAO arrived at an assessment of the 
conclusions that these two departments have that they simply 
not work together? Is that conclusion shared by the GAO, or 
have you asked yourselves that question?
    Ms. Melvin. Our concern is with the departments going down 
separate paths. We do think that it has inherent duplication in 
that approach.
    What I would say over time is that as we've looked at both 
departments' initiatives, I think back in 2013, we issued a 
report that looked at some of the fundamental reasons, or 
barriers, if you will, for why these departments weren't able 
to do that. I mean, inherently, each department has its own 
culture. And we understand that. What we found, though, that 
there was a lack of joint strategic planning on the part of the 
two departments to really look at what it is that they can do 
collectively to achieve this end state in terms of a joint 
system. We also saw that--and reported on the fact that there 
was a lack of a joint architecture, or an overall investment 
management plan for getting them there.
    Mr. O'Rourke. Let me ask you this--and I'm sorry to 
interrupt you--but is part of the problem that there are no 
consequences? Congress mandates a requirement and an
    outcome back in 2008, 2009, and Mr. Miller and Secretary 
Council have given us lots of great excuses for why they can't 
get it done. You've suggested some of the roadblocks that were 
in the way. But was there a consequence? Was anybody held 
accountable? Could these two departments just come to the 
conclusion that this is just too hard to do; we don't want to 
do it, for whatever reasons, and they don't do it. And now we 
are marching down these two paths that may or may not be 
parallel; may or may not be interoperable; may or may not work 
together; may or may not waste billions of taxpayer dollars; 
and there's no consequence.
    I've reached the conclusion that the only person who can 
referee this dispute between these two departments is the 
President. And it must become a priority of his. And he must--
unless there's--and I'm all ears on a compelling reason why we 
can't do this--unless he says to the Secretary of Defense and 
the Secretary of the VA: You have to find a way to get to a 
unified system that works for every active duty servicemember, 
their family members, dependents, and the veterans. It is 
certainly possible for all the reasons that everyone has given. 
Do you agree with that assessment? Do you think it is possible? 
Or do you agree with Mr. Miller and Secretary Council that this 
is impossible?
    Ms. Melvin. I won't say that it's impossible. I think our 
concern is that over the years, the history of looking at this, 
we've had a lot of concerns about the starts and stops with 
this initiative. There have been mandates. The 2008 National 
Defense Authorization Act, for example, directed them to have 
fully interoperable capabilities.
    It has been a history of the two departments going down 
particular paths that they wanted to pursue for this, changing 
at certain points. And there has not, in our view, been the 
accountability for them doing it. They have changed gears along 
the way; the most clear being moving from two systems to a 
joint system, and back to two systems again.
    So, it is a matter of the leadership taking the stand and 
saying we're going to make this happen, and working to do that. 
We have not seen the dedication on the part of the two 
departments to take a stand on that and actually make it stick.
    Mr. O'Rourke. I would just say to my colleagues that if we 
are satisfied by the excuses given today, then we share in the 
culpability for the consequences that I think we are going to 
be hearing about at a hearing in 2, 4, 6, 8, 10 years about why 
these systems can't work together, why we've spent billions of 
dollars, and why we haven't been able to get the job done. I 
think we have to insist on consequences and accountability and 
performance. And we have not done that effectively to date. So 
I look forward to joining my colleagues in working on that and 
demanding that of the administration.
    With that, I yield back.
    Mr. Coffman. Dr. Benishek of Michigan, you're now 
recognized for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    Frankly, I agree strongly with Mr. O'Rourke and Mr. Lieu. 
Some of the answers I heard today, like from you, Ms. Council, 
you talked about we can't work together with the DOD until we 
actually get a system that works with the private sector as 
well. Well, the private sector is not going to be interoperable 
at any time in the near future that I can ever see. And to just 
link that together, it gives you another excuse as to why this 
is not happening.
    Frankly, I agree that the President really needs to make 
this a priority to make this happen. I think I was at that 
hearing with the Secretary of Defense and the Secretary of the 
VA a while back, maybe this is 2011, where $1 billion has been 
spent and given up. And we just can't stand the fact that we 
are spending $1 billion on integrating health care, and you 
tell us it can't be done. I know that a lot of you are new. But 
we get sick of this. Really, I want the President to be 
involved.
    I want to go into something else here now that I heard 
about just today, and that is, the Orlando Sentinel described a 
project of the VA as making a virtual hospital with 3-D 
graphics in which veterans will create avatars and walk around 
examining their healthcare records searching for medical 
information, and walking to a virtual medical adviser doing e-
consults with physicians.
    Is anybody aware of this program? Are you, Ms. Council?
    Ms. Council. No, I am not.
    Mr. Benishek. To me, this is something--do the DOD guys 
know anything about this? Apparently, this was rejected by the 
DOD?
    Mr. Miller. No, sir.
    Mr. Benishek. It's just that it's kind of funny to see the 
VA doing some kind of a weird virtual hospital as a pilot 
program when we don't even have--we can't be working the real 
hospital. So you guys just aren't aware of that. And especially 
since the fact that most of the veterans have no idea what an 
avatar and all that stuff is.
    Do you know how much--is anyone aware of how much money 
that the VA has spent in trying to integrate this system? Ms. 
Melvin, do you know? Or Ms. Council, you're new, so I don't 
expect much from you. Ms. Melvin, do you know the amount of 
money? They told me over $1 billion.
    Ms. Melvin. We don't have a credible number. The most 
credible number we had was actually in the millions, at $564 
million for the couple of years of doing the integrated 
electronic health record. We have asked for figures to try to 
understand more specifically what that number is. I think I 
would say just over the history of the initiatives that we are 
looking at, to have it be above $1 billion would not be a 
surprise to me.
    Mr. Benishek. Let me ask another question. This is more 
like a philosophical question. I had a subcommittee hearing in 
the VA this morning, and one of the things about IT in the 
public sector is that I see changes so fast, that there's a new 
iPhone every 6 months. So the IT stuff changes really fast, but 
it seems like the VA and the DOD, they take years and years and 
years to develop a change in their IT system. And they have to, 
like, consider every possibility before they implement it, and 
that process takes like 8 years, by which time the thing is 
obsolete.
    Ms. Council, you have some kind of a software background. 
Why can't we institute the kinds of changes incrementally all 
the time, rather than have to build a system that takes 8 years 
to build them, and then by the time it's implemented, it 
doesn't work?
    Ms. Council. I totally concur with you. I think that since 
my arrival 3-1/2 months ago into government, it's been an eye-
opener of how long it takes to move technology.
    There are a number of different governance processes in 
place that don't hinder in private industry because our focus 
is on productivity and moving things forward, and at a very 
different aggressive manner.
    What I will tell you we have done with our new strategy is 
to put a framework forward to push us to much more of an 
execution focus by having a now, near, and future timeframe. I 
think we need to time-box our work, and think about what is 
really going to give us the most bang for our effort and get 
those things done, and done quickly.
    Mr. Benishek. Well, that's what I'm talking about. We can't 
expect to fix the comprehensive repair of the entire system. 
Let's just move along incrementally and do some changes. You 
have probably been on VistA, it's like a disaster. But it's 
like the best thing out there, because nobody has any 
interoperativity at all.
    So I just encourage you and I encourage the President to 
focus on making sure that you two guys get this all figured 
out.
    Thanks.
    Mr. Coffman. Retired Sergeant Major Walz of Minnesota, you 
are now recognized for 5 minutes.
    Mr. Walz. I thank the chairman and my colleagues. I thank 
each of you for being here. I just came from a roundtable with 
the 40 largest veteran service organizations. They understand 
how key this is. Any reform is going to hinge on this.
    I also say I understand your expertise that many of you 
have. I represent the Mayo Clinic. And so, I have at least a 
working knowledge now over the years of how electronic medical 
records are diagnostic tools, and all the importance and all 
the challenges you're up against.
    I also know my friend, Dr. Roe and I, years ago, traveled 
to Afghanistan to watch five different databases be opened as 
they were operating on someone. Watch MRI--or, in that case, I 
guess it was an x-ray--not have the bandwidth to move it from 
Afghanistan, to tape it on their chest on the way to Landstuhl.
    So we get this. We were looking at it. We were trying to 
piece it all together. And our goal is to follow that soldier 
back from that injury on the battlefield from right at the aid 
station all the way back to the VA hospital in Tennessee, or 
wherever in Minnesota. So we've been on this. We were there and 
celebrated on April 9, 2009, when the Virtual Lifetime Record 
President Obama signed. And I say that to you not to 
grandstand, not to highlight back-to-the-future week, or 
something like that. I say it to you because you're hearing it 
up here from members who have been down this road. And it's not 
for lack of commitment, it's not for lack of expertise, but 
something has got to break. And you're probably right, Mr. 
Miller. And I look back at the NDAA on the issue of what 
deployment means, the spirit and letter of the law. The spirit 
is, obviously, we just want them to be able to access and make 
it work. And I get that we've got to clarify and get at 
specifics.
    I guess I'm throwing it out there, and maybe it's more 
rhetorical than anything, because, again, I do not question 
your commitment. I think we've got very bright people here. In 
all fairness, there were very bright people that sat there 
before you in these very same jobs.
    And I hear the deployment date we set. And you're telling 
us, again, not because you're not working hard or you're not 
trying, or don't want to get it, or we're saying we're not 
going to get there. My question might be to all of you, is 
this, again, like, my question: Can we do this? I mean, I know 
it goes against the American spirit. I kind of feel like 
Churchill was right on this. You can always count on America to 
get it right after they try everything else first. Dang, we're 
trying a lot of stuff here. When do we get it right?
    Mr. Miller. Sir, I guess just let me make a couple of 
comments. One is, I think we get it right when our users are 
happy. And I would offer I really do think if you were to sit 
down and talk to our users and they see what we've done, we've 
delivered four releases in 22 months jointly between the DOD 
and VA focused on improving interoperability, getting feedback 
back, incorporating it in. So I can show you, just like Apple 
does, just like Microsoft does, four releases, 22 months. 
That's actually a little faster than Apple rolls out their 
iPhone every year. So we have demonstrated that we can make 
this move faster. I think the bigger thing is that we've all 
got to remember, it's bigger than the IT, right? The IT is 
actually the easy part of what we're talking about today. What 
we don't seem to every want to tackle are the people stuff, the 
process stuff. All the things that make business systems really 
hard.
    And so I hear what GAO says. I would like to believe a 
single system between DOD and VA would be able to be there 
tomorrow. But the reality is, we've got a lot of hard things 
that make joint programs in DOD incredibly hard. Adding another 
level with the VA makes it even more hard.
    And so I would just offer to everybody, we have to view 
this as an incremental progression. And I personally believe 
that what DOD and the VA are doing right now are getting both 
houses in order to position us, in the future, where we are 
actually ready to have the discussion about moving to a single 
system, there is actually a business case.
    I think what we tried to do back in 2010 was way ahead of 
the technology, it was way ahead of where our processes were, 
it was way ahead of where we are on data, and we fundamentally 
set ourselves up to fail. It's not because we didn't have 
people that believed. It's not because I couldn't show you a 
pretty technology slide that shows you all these cool wiz-bang 
things are going to happen. We failed for nontechnical reasons. 
And those things are things that we have to understand and we 
have to deal with.
    That is why I think you've seen more progress the last 2 
years between the two departments, because we learned from 
that. And now we're focused on getting our collective houses in 
order and really addressing the interoperability thing.
    And just let me say, a single system does not guarantee 
interoperability. You can go talk to any major national 
healthcare provider, and they will tell you that they struggle 
when you're talking about regions or they're talking about 
working across large geographic areas.
    It's not, again, because of the technology; it's because at 
the local level, they generate different processes, they do 
business differently.
    And so, for us to think that just adopting a single system 
is going to solve all that, I think it's a little naive. I 
actually believe we need have the discussion about how do we 
actually get ourselves to a level of maturity and readiness so 
that when we want to make the smart business decision, because 
at the end of the day, this is all about the taxpayer, and it's 
all about a beneficiary. And I think I can show you very 
clearly where, using the power of competition and using 
technology the right way, at least in the DOD, we have been 
able to drive this cost down and really save on the Department 
of Defense and make sure our users are getting what they need 
without, in any way, shape, or form, jeopardizing 
interoperability.
    Mr. Walz. I appreciate that. My time is up, but I 
appreciate your candidness. I think that is a question we're 
going to have to do. We're going to have to dig deep on this. 
Again, the taxpayers are going to ask for results. And I think 
you're on the right place there.
    I yield back. Thank you, Chairman.
    Mr. Coffman. Thank you, Mr. Walz.
    Mr. Huelskamp of Kansas, you're now recognized for 5 
minutes.
    Mr. Huelskamp. Thank you, Mr. Chairman. Excellent 
questions. I appreciate the joint hearing on this.
    I want to follow up with Mr. Miller, if I might. You've 
indicated you thought there was no way possible to deploy and 
meet the interoperability requirements of NDAA, is that the 
case?
    Mr. Miller. Sir, what I've said is we will have an initial 
capability that is in line with the NDAA. What I said is not 
possible, based on industry experience, based on on all 
feedback from everybody we've engaged with, is to think that I 
can deploy to more than 1,200 locations within that short of 
time----
    Mr. Huelskamp. But you've been in your position for 2 
years. Is that what you told us 2 years ago?
    Mr. Miller. Yes, sir.
    Mr. Huelskamp. Is that what you told the VA 2 years ago? 
This was not possible?
    Mr. Miller. The deployment date for 2016, sir?
    Mr. Huelskamp. You've have been in this position for 2 
years. Now you're telling us that this was never, ever 
possible, if I understood correctly, and $564 million later, we 
are now saying, well, this is really not possible.
    Mr. Miller. The $564 million dealt with IHR, which is a 
prior strategy. The 2014 NDAA directed us to deploy a 
modernized electronic healthcare software supporting clinicians 
at the Department no later than 31 December 2016.
    What I have routinely said, in my engagements on the Hill, 
has been, we will provide that software capability at our IOC 
sites in the Pacific northwest, but it is not physically 
possible to touch over 1,200 locations around the globe to 
deploy that software and have a remote chance of being 
successful.
    Mr. Huelskamp. So do you have interoperability within DOD 
currently?
    Mr. Miller. Yes, sir. As I mentioned earlier----
    Mr. Huelskamp. Or in the NDAA definition?
    Mr. Miller. Yes, sir, I do.
    Mr. Huelskamp. Okay. I'll ask the VA. Do you have 
interoperability currently within the VA?
    Mr. Burns. As I said earlier, we have, at the fundamental 
level, we have the capability of sharing the data, and with 
data standards. We are doing the ``use'' case analysis to look 
at more of the semantic level at this point. So we have pieces 
of it at this point.
    Mr. Huelskamp. I'm confused. Yes or no, do you have 
interoperability within the VA?
    Mr. Burns. We have interoperability within the VA in terms 
of the data that we have. I don't want to get too technical on 
this.
    Mr. Huelskamp. I'm just asking for a yes or no, as defined 
within the NDAA.
    Mr. Burns. Within the VA, we are able to bring the data 
together to share it across the areas.
    Mr. Huelskamp. Yes or no, we have interoperability today in 
the VA? I thought earlier you said we did not.
    Mr. Burns. What I'm saying was the interoperability, we 
were talking about DOD and VA. So, within VA----
    Mr. Huelskamp. There's 1,700 locations in the VA. And we've 
got thousands of non-VA care locations. I definitely know there 
is not interoperability between the VA and the non-VA care. Is 
that correct? My question is within the VA.
    Mr. Burns. Within the VA, we have interoperability to share 
the data, yes.
    Mr. Huelskamp. I wonder about that.
    A follow-up I have with the VA is, according to the VA, 
less than 8 percent of medical records are marked as sensitive, 
based on the aggregate of all VistA systems. In a briefing with 
IOG, the subcommittee staff was informed that unless records 
are classified as sensitive, VA does not have the capability to 
track when those records have been accessed. So does this mean 
the VA has no visibility on who accesses over 92 percent of 
medical records at the VA?
    Ms. Council. I think, if your question is related to who 
actually--that's called segmentation, who actually looks in 
logs. There is audit and logging into those systems. You know 
who goes into the system and who's looking at which records. Is 
it beyond that?
    Mr. Huelskamp. This is different information. From what I 
understood, you told our subcommittee staff, you said unless 
the records are classified as sensitive, you do not know who 
accesses those records. Is that inaccurate? Is that a change? 
Or, are you tracking? This is pretty critical. I want to know 
who's really getting into these systems.
    Ms. Council. I wasn't part of the testimony, sir. I don't 
know what you're referring to.
    Mr. Huelskamp. Mr. Burns, do you know what percentage of 
your records, or do you track the access of those records?
    Mr. Burns. I'm not aware of that statistic, no.
    Mr. Huelskamp. Would you be willing to provide that to the 
committee?
    Ms. Council. We can come back to you.
    Mr. Huelskamp. Would you agree that if you do not know who 
accesses those records, that we have a problem with privacy of 
that particular data?
    Ms. Council. I would say yes. And today, what happens with 
our PII and PHI information, doctors log in, we follow who logs 
in, as well as the nurses. They log into those records and out. 
But we will be happy to furnish you with the further 
information.
    Mr. Huelskamp. Based on what we find out, if the 8 percent 
matches, again, we are seeing 92 percent you don't track the 
access to those records. A follow-up would be later, once we 
figure out that number is, I want to know what the VA is doing 
to improve audit details in VistA to ensure that the veteran's 
PI is not inappropriately accessed.
    With that, Mr. Chairman, I yield back.
    Mr. Coffman. Thank you, Mr. Huelskamp.
    Mr. Connolly of Virginia, you're now recognized for 5 
minutes.
    Mr. Connolly. Thank you, Mr. Chairman. Welcome, to the 
panel.
    This really is so much more important than
    recordkeeping or how we deploy technology. This is about 
how we treat our active duty and military veterans. Is that not 
correct? Anyone disagree with that? Would you agree we haven't 
done so good?
    Mr. DeVries, you cited FITARA. We prefer to call it the 
Issa-Connolly bill, but FITARA is fine. And I think you cited 
it because it is a new tool, that had it been available, might 
have helped us in looking at the investments we made in the 
past. I don't want to put words in your mouth, but is that what 
you cited it?
    Mr. DeVries. So the FITARA ruling has come out----
    Mr. Connolly. I'm sorry, what?
    Mr. DeVries. The FITARA rule has come out, and I think it 
has been a great leveling set for the other agencies across the 
Federal side of the house, providing the tools for the CIO to 
look at. It also reinforced a lot of the behaviors that we were 
exercising already inside the DOD.
    In the case of here, for the medical records, I don't think 
we had enough authorities, we had enough oversight on it. I 
would challenge to the committee here. As we were talking about 
this discussion, we kept using the words system. FITARA, in 
itself, kind of deals with a system. But it is not a single 
system. It's about a capability. It's about understanding the 
data. It's about understanding the individual, both the 
patient, but also the provider for it, and I really don't care 
how the provider accesses or what tools he used, as long as he 
takes care of me, the customer.
    Mr. Connolly. Right.
    Mr. DeVries. I think that is where we are going.
    Mr. Connolly. I would just note for the record, had FITARA 
been in law at the time, it would have required a cost-risk 
analysis to substantiate whether the current approach is, in 
fact, less expensive and faster to implement, as the 
Departments have asserted, before the 2013 change was made to 
pull the plug. And GAO, of course, has repeatedly asked for 
data to substantiate that decision. So it would have been an 
analytic tool to help us through.
    Ms. Council, you're familiar with FITARA?
    Ms. Council. Yes, sir.
    Mr. Connolly. And you're moving to implement in the VA?
    Ms. Council. We're fully implementing it within the VA.
    Mr. Connolly. Good. Do you think it could have been a 
useful tool? I know you are only there 3-1/2 months, but that 
gives you the one benefit of looking back and thinking, How 
could we have avoided some of the problems?
    Ms. Council. It's always great to have solid data and 
understand how decisions were made, so you can decide and 
people understand, at that point in time, this is what we knew, 
and this is a decision that we made.
    Mr. Connolly. Mr. Miller, I wish I had lots of time to talk 
to you. You said we failed for nontechnical reasons. What did 
you mean?
    Mr. Miller. Sir, what I mean is, with business systems, 
you're really changing how the work is done. Right? So you've 
got to think about the training, you've got to think about 
changed management. You've got to think about communications. 
The reality is, is that these tools on the business side exist 
to enable work flows and to make decisions. And my comment 
really is, is that oftentimes where we fail, is that we haven't 
done a very good job of making sure that we account for the 
user adoption; we don't account for the over-the-shoulder 
training; we don't account for all those things that have to 
happen to really make sure that the system is successful.
    Mr. Connolly. Yeah. And I think that's a fair point. It's 
not just about technology. And technology is a tool, not an end 
in and of itself. But it's important. I've gone to oncology 
centers where doctors initially really resisted electronic 
recordkeeping. And now they wouldn't live without it, because 
they can now see instantly the protocols in place for dozens of 
patients and make instant modifications. It may be more 
efficacious. It's saving lives.
    What we're about here today is saving lives. It is vital 
that if I'm active duty and you've got my medical records, they 
would be seamlessly transferred to VA when I become a veteran. 
So we're not worried about whether I need to reinvent the wheel 
on testing and data, but that we're getting to my medical 
condition and treating it.
    And that is what concerns me; that by pulling the plug on 
an integrated system in 2013 and deciding to reinvest in our 
two parallel systems that are not interoperable, how do we get 
to the point where it's interoperable? Maybe you perfect the 
two parallel systems. But when I cease being active duty, I 
have to go into a brand new system and start all over again.
    Mr. Miller. Sir, it's important to remember, that 
requirement is not unique to DOD and VA. I'm a Marine. I took 
my medical record home. But just as importantly, I'm a cancer 
survivor. I had cancer as a civilian. When I moved from San 
Diego to Charleston, my provider in Charleston told me to call 
back to Kaiser Permanente, who had an electronic system, and 
have them fax it to me.
    I understand the importance of taking care of our veterans.
    Mr. Connolly. And did that work?
    Mr. Miller. No, sir, it did not. So I think it's important 
we recognize this is a national issue. How we take care of 
people, how we provide health care, how people move around 
between our systems is something that the national community 
has to figure out. And they are attacking this issue. It has 
been very clear, if you watch during the procurement that we 
went through this past year, how much the debate ensued on 
interoperability and how much progress you got out of some of 
our----
    Mr. Connolly. Mr. Miller, it is a national issue. But we 
are talking about two Federal agencies that deal with a 
specific population in our care. And when we talk about 
taxpayers, they want to know our military, our veterans are 
getting the best we can possibly deliver. And we're not 
delivering the best.
    And one of the problems is, we've had bureaucratic inertia 
between two agencies that can't get their acts together on 
behalf of the men and women we are serving. That's the issue, 
not that there is some national problem that is bigger than all 
of this. This is conquerable. This is within our purview. 
You're Federal agencies. And you owe more to the men and women 
who've served this country than they're getting. And that's why 
we're having this hearing.
    I yield back.
    Mr. Coffman. Thank you, Mr. Connolly.
    Dr. Roe from Tennessee, you're now recognized for 5 
minutes.
    Mr. Roe. Thank you, Chairman. I'm going to probably go down 
a little different road.
    I was here, and probably other than Mr. Walz, I've been 
here on the Veterans' Affairs Committee longer than anyone. I 
served in the U.S. Army as a physician, as a doctor. I trained 
in the VA. So I've been in both systems. I was in the system 
when this was your health record. And you carried it back with 
you. And it worked okay. And this electronic system we've got 
in the VA now works so smoothly that the primary care doctors 
can see about 10 or 12 people a day, and me using this 
technology, I could see 25 people a day, easily.
    Now, there are--we have transitioned to a more modern 
system, there is no question. And Mr. Miller, you are 100 
percent right. I went from paper to an electronic health 
record. It is not easy. What you're trying to do is not easy. 
But I agree with Mr. Connolly. Ditto, right on. What has got to 
happen is we have got to have one system, or 20 years from now 
we're going to be sitting here having exactly the same 
conversation. And very smart people 5 years ago sat down and 
told us, We can make these interoperable.
    I went to Great Lakes, Illinois in January, that wasn't a 
lot of fun, to see how interoperable the system was at the VA 
and the Navy. And guess what? In about 5 minutes, they could 
give me, the doctor, a CBC. Well, I haven't got 5 minutes to 
wait. I can wait on a fax machine that quick, to be able to 
pull it up.
    Let me tell you what $1 billion is that was wasted. And to 
do this day, I asked the Secretary, What happened to that $1 
billion when you two were trying to work together--not you all, 
but the previous DOD and VA--to make this work?
    I served in a hospital system in Johnson City, Tennessee, 
that is $1 billion system. It has 9,000 employees, 13 
hospitals, 70,000 admissions, 250,000 ER visits, and they 
service a $600 million debt. That is what a billion can do. And 
that's what the VA and DOD managed to waste. And I have no idea 
where it even is. It's hard for me, with a straight face, to go 
home and say what we did with this money.
    Now, I appreciate the fact that like the VA has a legacy, 
you guys at DOD have a legacy system. I think you were smart to 
get rid of it and go to something more modern. That does make 
sense. But what should have happened in that time was your 
partner, which are taking care of exactly the same patients--
one day I was an active duty military, the next day I was a 
veteran. It happened to you. It happened to me. It's going to 
happen eventually to everybody after their 30 is in.
    So I think that the President should step up and say we're 
going to put these two department heads together and they're 
going to work on one system. It may take 5 or 6 years to 
implement this system. But me personally, I'm not going to be 
part of another system that 10 years from now, we have the same 
thing, where you can't even pull up a CBC when you separate 
from the military.
    So, Ms. Council, you have a legacy system you're trying to 
make work. And I'm not asking you to say it's up to you to 
switch systems. That's above your pay grade. But wouldn't you 
think it would be simple if both of you had the same system?
    Ms. Council. Life is always easier when we're looking at 
the same map, yes, sir.
    Mr. Roe. That's what I thought. And the data--and I 
understand being able to format data where you can see it. I've 
got that. I know how that works. In our own ACO at home, we 
have 40 different electronic health systems. I've got it. I 
understand that. That's why if you can get to one, everybody 
benefits. And I think if we're going to spend billions of 
dollars, we ought to go deep in and convert both systems.
    And the VA is comfortable, the DOD was comfortable with 
what they had, but they couldn't work together. And look, smart 
people tried. I don't think there was any fraud or anything. I 
think a lot of smart people tried to make this work, and just 
couldn't.
    Ms. Melvin, you said that, no single system, no 
identifiable goals. And I think that pretty much felt it out.
    Ms. Melvin. I would agree with you. Our concern throughout 
the history of this initiative is that there has never been a 
really defined end state for what it was that the agencies were 
trying to achieve, and how they could go about really 
determining what interoperability is, and then establishing and 
identifying how they were going to get there.
    Mr. Roe. That's what we asked the Secretaries to do in 
2013. I was at the hearing when both Secretaries came in and 
gave us that information that it wouldn't work. So they just 
stopped. And then that's when the DOD went a separate route. 
And, again, I have no problem with that. I think it's probably 
a good idea.
    Mr. Miller, you said that this was hard. Well, hard isn't 
an excuse not to do this. And it's something that I think we 
have to do going forward for our veterans and for our active 
duty people. And the fact that a private system will work, you 
sort of made the system that it wouldn't work at the VA. Well, 
if it works in a submarine, it works in the private sector. And 
as Mr. Walz said, we have been to Afghanistan and looked at 
that wounded warrior there. It will work at a VA, I would 
think, with perhaps some modifications.
    Mr. Miller. Sir, I'm not going to disagree with you. I 
think what we also have to recognize is the two departments 
have a culture of how they go about doing acquisition. In the 
case of the Department of Defense, I think what we've 
recognized over the past 5 years has really been we are not in 
the health IT development business, really. We want to be 
somebody that leverages the commercial market. We want to be 
somebody that kind of rides that. When I was a Marine, we had 
Banyan VINES. It no longer exists. We now use Microsoft 
products.
    I think what has to happen here is we have to attack the 
problem the same way. The reason why I say it is, it's about 
bigger than the technology is, when the two organizations 
budget differently, they do acquisition differently, they view 
their role in health IT differently, it sounds really----
    Mr. Roe. But to interrupt you though, the whole purpose has 
been stated a thousands times up here. The mission is to take 
care of both the wounded warrior when they are on active duty, 
and then the veteran. Nobody cares about all this stuff. What 
they care about is do I get the care for me and my family? 
That's what they care about.
    Mr. Miller. Yes, sir, I completely agree. I just think as 
an acquisition person, I can solve that problem more cost 
effectively for the American taxpayer by solving 
interoperability while letting the two departments go through 
the necessary modernization that needs to happens. The reality, 
sir, like you recognized, DOD stopped their last deployment of 
the system in 2006. My niece's husband is an Air Force doctor 
down in Biloxi, Mississippi. He calls me routinely to talk 
about how bad his system is. Because he went through residency 
using commercial systems. He cannot believe the impact on his 
productivity by not having a system that is as modern and as 
advanced as what he needs.
    So the reason I say that is because we can solve the 
interoperability challenge. What I can't afford to do is go 
back to my clinical users who have demanded a new system and 
tell them I've got 5 more years while we work through all these 
other hard things. I just think we need to come back for the 
record and show what the business case is.
    Mr. Roe. I'm over my time, Mr. Chairman. One last thing is, 
is that I've been hearing for 7 years we're going the make this 
work and interoperable by smart people. It hadn't worked yet.
    I yield back.
    Mr. Coffman. Thank you, Dr. Roe.
    Ms. Duckworth of Illinois, you're now recognized for 5 
minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    I'm thanking the witnesses for being here today. When I 
left Walter Reed as a patient, I left with a CD-ROM with my 
entire record, including the notes from the surgeons who 
performed my amputation.
    In order to get into the VA system, I had to wait 90 days 
for an appointment, and that consisted of me going in to see a 
physician's assistant for whom I had to disrobe to show him 
that I was still an amputee, that in those 90 days my limbs had 
not grown back.
    Now, in that time period, that physician's assistant did 
not want to see me. He had other patients to see. There was a 
backlog of patients waiting to be seen. He was not able to just 
accept DOD's records. And so it was a waste of time for him. It 
was a waste of time for me. It was a waste of resources for 
other veterans.
    I say this because as a patient of the VA and as a former 
patient of DOD, I am proud of both healthcare systems, and I am 
proud of the people who work in both systems, but I am also 
equally frustrated by both sides because I have been a member 
of the leadership at VA. In fact, my frustration with this very 
issue is one of the reasons that I quit VA in 2011 to go run 
for Congress because of the posturing, the inability to work 
with each other, and the continued strife, and the waste of 
sheer taxpayer dollars.
    It's literally one of the reasons why I ran for office 
because I sat in those meetings every week at the Pentagon 
where, let me tell you, from my personal opinion, Tammy 
Duckworth's personal opinion, the VA got rolled by the DOD on a 
weekly basis.
    Mr. Miller, what you can tell your folks about--your 
clinicians about what you can do to get them a good system and 
not wait 5 years, you can tell them we're going to adopt VistA, 
and then together, while we're using VistA, we can work toward 
something else. That's how you get them a better system 
immediately. But let me tell you that I was there week after 
week, and then when it went onto months, it would be a new one-
star or a new two-star who would rotate in, the old one would 
leave, and the new one would come in, and goes: Oh, I need a 
new study, you know, because I wasn't here for all of those 
weekly meetings, I need a new study, we need to figure out 
what's going on.
    And, Ms. Counsel, I know that you testified earlier, I was 
watching from my office that the--you have to actually send the 
data from one VA hospital to another in order to be able see 
that. I have to tell you that you've undersold VA a little bit 
because I've gone to different VA facilities and actually have 
had my doctors know how to log out of the system for that 
hospital and then log into the correct system and been able to 
see my records, which has been very helpful.
    And following Hurricane Katrina, veterans who were affected 
by Hurricane Katrina could actually go to other VA facilities 
and get the prescriptions they needed wherever they were. 
Whether that was in Texas or Missouri or Mississippi, wherever 
they ended up, they were able to get, so there is a way for 
that to happen.
    But, look, this is about a longstanding deeply embedded 
culture that prioritizes in both agencies turf battles over the 
well-being of our service members. It's about a VA system that 
struggles with the growing demand for the Department's medical 
services that is burdened by policies and written rules that 
says you have to go in to see a physician's assistant before he 
can confirm that your legs didn't grow back. I'm not a gecko. 
They don't grow back on their own.
    It's also about, you know, the fact that we're wasting 
hours and resources to conduct medical examinations. We should 
be treating veterans. It's really been disheartening for me 
personally to watch the massive DOD bureaucracy repeatedly, and 
I say this again, repeatedly, roll VA over and over and over 
again, which despite its serious problems at VA, VA has real 
problems, it was actually one of the earliest organizations to 
implement EHRs, and let me--I just finished my Ph.D. In 
October, and the topic of my Ph.D. Was actually electronic 
health records, and it was partially inspired because of my 
work on this issue.
    It was even more shocking to watch DOD not only roll VA but 
roll the Office of Management and Budget, which pushed in vain 
earlier in the administration to convince DOD that it needed to 
work with VA to develop a single integrated electronic health 
record system, and to this day, I harbor serious concerns about 
the decision to abandon the goal of a unified single integrated 
system for DOD and VA. If we're going to spend $11 billion of 
taxpayer money, I don't understand why we wouldn't have 
invested this astronomical amount of money in a fully 
functional interoperable system.
    Now, having served on the committee--on this committee and 
Armed Services Committee--I have my suspicions about the 
motivations and incentives that explain DOD's longstanding 
unwillingness to work with VA to modernize and enhance VistA to 
meet 21st century healthcare needs. And I'm not going to get 
into an argument with you. My personal opinion is everybody's 
got bureaucratic turf battles. Everybody's got a budget that 
you would like to hang on to and to supervise. That stuff has 
got to end because veterans are suffering.
    So my question is actually to Ms. Melvin. In your 
testimony, you noted that neither DOD nor VA could substantiate 
their claims that maintaining two separate EHR systems would be 
less expensive than developing a single integrated system and 
would be developed faster than creating a new unified DOD/VA 
system. Is that correct?
    Ms. Melvin. That's correct.
    Ms. Duckworth. So they're not able to substantiate it?
    Ms. Melvin. They were not able to provide us the 
information. We asked--I suggest--recommended, I should say, 
that they provide or develop cost analyses for--cost estimates 
for the alternatives, the alternative to develop a single 
system as well as the new--two separate systems and to compare 
them and to provide information to us relative to--which was 
the more viable solution.
    We'd like to see the justification for why going back to 
two systems is better than one system. That's very important to 
really--the bottom line of whether this is a more reliable 
approach that they're taking over what they had been going with 
before.
    Ms. Duckworth. Are you expecting that information anytime 
soon?
    Ms. Melvin. I don't believe we are. I don't think that we 
have any date yet to get that information. We are still working 
with them. We do still have our recommendations on record 
related to that, so we are still coordinating with the agencies 
about that.
    Ms. Duckworth. Mr. Chairman, I am well over time. I 
apologize. But may I request that the two agencies provide that 
information to this committee?
    Mr. Miller. Ma'am, we have provided that information.
    Mr. Coffman. If there are no objections, with unanimous 
consent, please submit the information that Ms. Duckworth has 
requested for the record.
    Ms. Duckworth. Thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Mr. Hurd of Texas.
    Mr. Hurd. Dr. Duckworth, I like the sound of that. We may 
have to have you as a witness on the followup hearing.
    I like going at the end of the first round of questioning 
because you get to hear all the conversations, and this is an 
interesting topic to me. My dear old father is still upset with 
me for not taking a job with IBM to help them build databases, 
so this is something that's a topic that's near and dear to my 
heart. And I talked about my opening frustration, and that 
frustration is still here, despite all the testimony.
    And my first question, Ms. Melvin, you've alluded to this, 
and you've answered it, but I'm going to ask this question 
again. Who is in charge of interoperability of electronic 
health records between DOD and the VA?
    Ms. Melvin. At this time, the interagency program office is 
designated as the single point of accountability. However, what 
we do know at this point and what we've reported is that VA has 
its own governing body, I think as Ms. Council has alluded to, 
and also DOD has its own governing body, so there actually are 
at least three different entities that are involved with this.
    Mr. Hurd. Thank you. That's helpful.
    Mr. Miller, you represent the IPO. Is that correct?
    Mr. Miller. Sir, I represent the Department of Defense as a 
senior executive responsible for both our interoperability and 
our modernization efforts. Director of the IPO is Dr. Lauren 
Thompson, who reported back in May, and she actually runs that 
office.
    Mr. Hurd. So is that Dr. Thompson?
    Mr. Miller. Yes, sir. So she reports to----
    Mr. Hurd. Do you report to her?
    Mr. Miller. No, sir. She works for me and Under Secretary 
Kendall.
    Mr. Hurd. So you're her boss?
    Mr. Miller. Yes, sir.
    Mr. Hurd. So--but you're a DOD employee?
    Mr. Miller. That's correct, sir.
    Mr. Hurd. So who is this governing body within DOD that is 
looking about the interoperable medical health record?
    Mr. Miller. So within both Departments, they have their own 
IT acquisition organization. So within the Department of 
Defense, that's Under Secretary Kendall. He's responsible for 
all of our acquisition, and so as on the acquisition and 
technology side, he is who we report to on our efforts within 
operability. The same goes on the VA with Ms. Council. What we 
do is we routinely meet between Ms. Council and Secretary 
Kendall to review----
    Mr. Hurd. I get that. I get that. Thank you.
    So my question, Mr. DeVries, a clinic, a VA clinic, and 
let's just say San Antonio, can they have one computer that has 
access to the VA health system and the DOD health system?
    Mr. DeVries. They could, sir.
    Mr. Hurd. Do many people have access to that?
    Mr. DeVries. Not today.
    Mr. Hurd. It's a good question.
    Mr. DeVries. Not today.
    Mr. Hurd. Why is that?
    Mr. DeVries. I think it's based upon technology, where we 
are today, and where the data is. Identity is a critical part, 
as I talked about before, from both the patient as well as the 
provider.
    Mr. Hurd. And you're responsible for that, correct, 
providing the accesses and the protections around that data, 
you specifically?
    Mr. DeVries. Correct. Overall policy is, yes.
    Mr. Hurd. So if Mr. Miller--can Mr. Miller tell you what to 
do? Is he in your chain of command?
    Mr. DeVries. He is not in our chain of command.
    Mr. Hurd. So the person that's responsible for protecting 
the data, all right, of our health data, all right, which is a 
key part of interoperability, the person who's charged with 
interoperability does not have control over those people making 
those decisions, is that correct, or am I confused?
    Mr. Miller. Sir, I would offer just checks and balances. So 
my job within the Department of Defense is to lead the 
acquisition, the testing, and deployment, but I have to get 
approval from our CIO organization to make sure it meets the 
security requirement, we're protecting data, so it's a 
partnership. You know, there's no single, if you want to, go up 
to the very senior level, but day-to-day, I don't do anything 
without him, and obviously, they have to have something that we 
provide in order to assess our security and how we're doing at 
protecting people's information, sir.
    Mr. Hurd. So, Mr. Miller, you said this is a national issue 
about interoperability of health care records. I agree with 
you, and I also agree with Mr. Connolly as well. This is about 
two Federal agencies sharing information amongst each other, 
and to me, it's shocking that a doctor in San Antonio, Texas, 
can't have one computer on their desk that accesses both the 
DOD records and the VA records.
    Mr. Miller. Sir, he can, and I would love to----
    Mr. Hurd. But they're not. Look, so how many doctors--how 
many--how many DOD doctors and how many VA doctors have you all 
talked to on the implementation of this system and what they 
need in a interoperable electronic health record?
    Mr. Miller. So let me talk about the requirements when 
you're in interoperability. It is jointly led by easily, you 
know, 20 or more clinical leaders from both Departments, and so 
today, in San Antonio, on the DOD side, we provide access to--
through what we call JLV, but it's actually integrated her.
    Mr. Hurd. Yeah. And let's get to JLV.
    Mr. Miller. So, sir, let me just explain. It's in our her. 
It's inside of AHLTA. There is access to be able to see the VA 
data and the data from the private sector. That is available to 
any DOD physician, PA, nurse----
    Mr. Hurd. How do they gain access to it? Who do they ask? 
How would--if I'm a doctor, how do I gain access to be able to 
see those both records?
    Mr. Miller. So to be able to see both records, all they 
have to do is go--just like any other IT system, they go to the 
local administrator, they grant them the keys to access the 
system. We've gone in the DOD from about less than 500, now 
over 8,000 in about 6 months, and we are continuing to rely. In 
fact----
    Mr. Hurd. And this is for JLV?
    Mr. Miller. Yes, sir. In fact, at Brooke Army Medical, it 
is one of our largest users and actually where we've been doing 
the operational tests. So besides getting input back on the 
requirement side, we've actually gone and done operational 
testing at Brooke Army Medical in Alaska and at Walter Reed to 
get feedback from, no kidding, users, which has been rolled 
into the future enhancements of the system. So we have an 
incredible engagements with our clinical functional users to 
make sure we're meeting their requirements.
    Mr. Hurd. But a soldier, sailor, airmen, and marine, when 
they show up to a VA clinic for the first time, they still have 
to print out----
    Mr. Miller. No, sir. And I talk to people routinely.
    Mr. Hurd. Okay. So let me ask you this. So you're saying 
nobody has to do that?
    Mr. Miller. So, sir, they print that record out because 
oftentimes our Active Duty, especially when they have been in 
the service a long time, predate our IT system, so I think it's 
important to recognize that. We have not been fully electronic 
within the entire Department.
    Mr. Hurd. Absolutely. So here's the problem. You have--so 
quick question, and Mr. DeVries, you may be able to answer this 
question for me. If I'm in the Air Force and I go see a DOD 
doctor, is my record different than someone in the Army that 
goes and sees a DOD doctor?
    Mr. DeVries. It is not.
    Mr. Hurd. It is not?
    Mr. DeVries. It is not.
    Mr. Miller. Same system.
    Mr. DeVries. Same system.
    Mr. Hurd. So all branches--okay. Air Force, Army. Is it the 
same for all branches of the military?
    Mr. DeVries. Yes.
    Mr. Miller. Same system.
    Mr. DeVries. You have rights to the same data repository.
    Ms. Duckworth. Will the gentleman yield?
    Mr. Hurd. Please.
    Ms. Duckworth. Very briefly. I just have a little 
something.
    Mr. Hurd. Please.
    Ms. Duckworth. So I don't know if the gentleman is aware of 
how frustrating this is when there's even a hospital in Chicago 
that is a joint Federal VA/DOD facility. And in that hospital, 
they actually have two computers sitting next to each other, 
one with a VA system and one with a DOD system. And that 
hospital is supposed to be a joint facility treating 
simultaneously veterans and Navy personnel. And even there in 
the hallmark hospital that is the flagship of this effort, it's 
two computers sitting next to each other. Shameful.
    Mr. Hurd. It really is. You know, who is actually, so I 
look at this problem multiple ways. You have the various health 
facilities that a soldier, sailer, airman, marine may see in 
their time when they're in DOD. Then you have all the 
facilities within the VA. Then you have if a veteran has to go 
to a private, a private healthcare provider. It's a whole other 
set of issues with interoperability, which I recognize the 
complication of that. Then you have people that starting today, 
brand new, starting basic training in this new system in their 
lifetime. Then you have the people that have already been 
serving, that have served for 30, 40 years. And they have a 
number of old records in a legacy system that are super old and 
outdated. I get that. But what we haven't heard from any of 
this is what is the plan to solve those different problem sets? 
We talk about mapping data. Do we not know what the format the 
various pieces of data are in? Do we not know? They're all 
basically databases. And we know how many fields there are. 
There may be thousands of different fields. And each field may 
hold, it could hold text; it could hold imagery. I get the 
difficulty of that. But we should already know what that 
mapping theme is. And in order to do the map from DOD to the 
map at the VA system, why has it taken 4 years and $536 million 
to do that and then everybody throws up their hands and says: 
Our bad, this is really hard to do, and we're going to have to 
go through separate systems.
    Now, I recognize, I don't think anybody on this panel was 
around in 2008.
    Mr. DeVries, maybe you were. No? Okay. Not around, but you 
weren't involved in this.
    So the first step is have we gone back and looked at the 
problems that this would solve, right? And, Ms. Council, I know 
you're new. And I'm excited about you bringing some expertise, 
some experience from the private sector. I don't know if you 
knew what you were stepping into when you took this job, but 
we're glad you stood up and are willing to take on this 
challenge. But we have to look at the failures of the past. 
And, I'm sorry, 2 years is not acceptable. And saying that, you 
know, I wasn't around, when we are talking about the fiscal 
year 2014 NDAA and that we're going to comply with that 
requirement but at the end of this month, our soldiers are not 
going to be able to walk into a VA system and get access to 
their DOD record. They may be able to see it in JLV. But JLV is 
the equivalent of using microfiche. And you may be able to 
search for an individual patient, but you can't search, what 
was their blood pressure? And sometimes you have to have VA 
clinics do the same tests over because they can't see the 
imagery that was included in their DOD system. That's a huge 
waste of time. And what is shocking in all this, the men and 
women, these doctors, the healthcare providers in the VA and 
the DOD, they're doing a damn good job, right, when they're 
actually providing that service. And they're the ones that are 
having to get these workarounds for their system to make sure 
that they're providing the kind of health care that our 
soldiers, sailors, airmen, and marines have.
    Now, my last question, I'm way over time, and I apologize, 
Ms. Council, do you have all the tools, authorities in order to 
do this job?
    Ms. Council. I had this conversation with my team. I think 
it's the first time in my career I can say yes.
    Mr. Hurd. Excellent. If you need more, let us know.
    Ms. Council. Will do.
    Mr. Hurd. And, with that, I yield back.
    Mr. Coffman. Ms. Kelly, you're now recognized for 5 
minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    The GAO's written testimony concludes that your decisions 
to pursue separate her EHR highlights, and I quote, ``the 
criticality of these Departments needing to define what they 
aim to accomplish in these efforts and identify meaningful 
outcome-oriented goals and metrics.'' DOD and VA, do you agree 
with GAO's assessment that outcome-oriented goals would help 
measure progress toward interoperability and hold your 
Departments accountable for their progress?
    Ms. Council. Yes, I do.
    Mr. Miller. Yes, we do.
    Ms. Kelly. So what do your respective agencies aim to 
achieve from your interoperability efforts. What do you want 
for your outcome?
    Ms. Council. From our point of view, we want to be able to 
have a medical, an electronic health record that is accurate 
for that veteran that can be used in any way, shape, or form 
that that veteran needs to have it used and be fully portable 
to be where the veteran needs to be.
    Mr. Miller. Ma'am, I would say it kind of goes around what 
we use in the DOD, a quadruple aim, if you will. And those four 
vectors really are, the first is readiness. At the end of the 
day, the Department of Defense has to be operationally ready to 
execute the mission. That includes our servicemembers as well 
as our families who take care of them while they are on 
deployment. Secondly, we got to address quality. We got to look 
at our costs. And we got to look at improving decisions that 
actually impact the lives of our servicemembers, beneficiaries, 
and veterans.
    Ms. Kelly. And what value in benefits would all users gain 
from the deployment of modernized electronic health record 
systems with interoperability?
    Ms. Council. At the end of the day, it's a seamless, 
unified point of view. And I think that's what every patient 
wants. They want not to have to answer the question 10 times, 
not to have to fill out another form, not to have a missed 
record or a missed report or a missed test. They really want 
the doctor to have the best information at their hands, at the 
time that they need to make the decisions about their health.
    Mr. Miller. Can I take it a couple ways? One is I think our 
users really want a modern system that helps with 
decisionmaking, gives them productivity time back, looks at 
engaging modern technologies, like smartphones and some of the 
natural language processing, because at the end of the day, 
they're busy. And we ought to be doing everything we can to 
provide them tools that are open and secure to enable them. The 
second thing I would highlight is we want to go after a modern 
system that is really about the patient, and it's really about 
engaging the patient more. We have the ability today to provide 
our health record information to our beneficiaries. But I think 
when you see what's going on in the commercial market, you 
really see where the more the patient is engaged in their 
healthcare decisions, the better the outcome. So one of the 
things we are really after here is making sure that we have a 
system that engages them and so we really can help drive. And, 
lastly I would say from our perspective on the IT side, it's 
also about security and it's about driving down sustainment 
costs. The system we have today, we, actually it's multiple 
systems, we cannot sustain them forever. We have to adopt an 
enterprise system that handles a lot of that integration and 
continues to provide us new technologies so that we can drive 
our sustainment costs down so we can be affordable.
    Ms. Kelly. Both of you had great answers. My last question, 
what is the status in defining these outcome-oriented goals? 
You had the right answers. But what's the status?
    Ms. Council. As far as we're concerned, our goals and our 
new dashboard will be up in January for full visibility. We're 
looking to make sure we're measuring the right things and we're 
measuring metrics that matter, not just a bunch of stuff that 
nobody really cares about.
    Mr. Miller. Ma'am, the IT is actually taking the lead here. 
They actually had a series of summits and meetings, pulling 
together subject matter experts and people to kind of working 
our way through this. In fact, tomorrow is one of those 
meetings. In the case of the larger DOD side, just like the VA, 
we have a larger performance metrics and things that we 
monitor. What we're working through right now is trying to 
understand is that the right map or are there things we're 
missing. What we're really trying to do is generate a first 
step that utilizes those. And, in parallel, what I've also 
asked that we look at is bringing in some really smart people 
who understand operations research. We have some great FFRDCs 
and activities that really understand how to look at some of 
these things, as well as some of the national health systems. 
So while we're kind of doing this first effort, we're also 
going to be doing a very strategic look in engaging some people 
and having them help us work our way through this. We aren't 
the first people that have tried to figure some of this out. 
But we recognize that it's important. And we recognize we got 
to get something in place that's better than just measuring 
transactions between our two Departments.
    Ms. Kelly. Mr. Chairman and both of you, I look forward to 
having another hearing so we can hold these Departments 
accountable and see what the progress is. Thank you.
    Mr. Coffman. Thank you, Ms. Kelly. Dr. Benishek, you're now 
recognized for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Ms. Council, I know 
that you're new there. And I have a couple of specific 
questions. Has anyone reported to you that the Choice Card 
program participants, the database that's maintained in the 
Health Eligibility Center is running out of space, and at some 
point, this issue will cause it to crash? Have you heard 
anything about that?
    Ms. Council. I have not.
    Dr. Benishek. Has anyone revealed to you that the Choice 
Card database apparently didn't go through the normal security 
review process?
    Ms. Council. I'm not aware of that.
    Dr. Benishek. This Health Eligibility Center is in Atlanta. 
Do you think you could kind of look into these issues that have 
come up to the committee, see if you can go there and see if 
it's a reality or what exactly the story is with that?
    Ms. Council. As far as the HEC is concerned, related to the 
other issues, but I'm not sure of the Choice issues that you 
mentioned but we----
    Dr. Benishek. I'm just bringing this up because the 
committee has had these issues, and as long as you're before me 
here, it sort of relates to the security question, because I'm 
on the O&I Subcommittee in the VA. We've been reported to that 
the VA health system has been hacked completely. And, you know, 
I would like to be sure that this does not continue to be the 
case. What's your, what's your, I saw Mr. Miller was worried 
about that with the DOD. And, certainly, we don't want a system 
that gets hacked.
    Ms. Council. No one wants a system that gets hacked. I'm 
not aware of our systems being hacked, sir. I would love to 
look at that information to certainly understand it better. And 
we move with best diligence and quickly on this issue. And if 
you, as you're aware, with the cyber strategy we put in place, 
we've tighten up our processes aggressively, reduced elevated 
privileges that people have had in our environments, and 
changed it aggressively. And in particular, with the HEC, as it 
related to the systems and the applications that were engaged 
with the veterans, we have remediated that system, which was 
not an OI&T system, but it is now. But the Choice program, I 
will certainly look into that.
    Dr. Benishek. I appreciate that. Thank you.
    That's all I have, Mr. Chairman. Thank you.
    Mr. Coffman. Thank you, Dr. Benishek.
    Ms. Duckworth, you're now recognized for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    There was earlier, Mr. Miller, I think you mentioned that 
VA and DOD have very different acquisition systems. But I 
believe that under the previous CIO at VA, he instituted a 
program called PMAS, Project Management Acquisition System, 
that, as I recall, was very well received and has saved 
significant amounts of money for the taxpayers in terms of how 
the VA acquires IT systems and programs.
    Ms. Council, is VA sill using PMAS or something similar, a 
legacy from that?
    Ms. Council. PMAS is not our acquisition system as much as 
it's a management system for how programs and product, how 
programming is done to create code. We are in the process of 
re-looking and reestablishing PMAS to reduce the overhead that 
it has started to create in order to make sure we can get code 
done faster with higher quality and security and different 
techniques we need built in. So it will be a more wholistic 
look at everything we do from end to end. It's a solid process. 
But just like every other process, you need to look at it and 
constantly keep it up to date.
    Ms. Duckworth. So is it something that would be used as 
you're working toward improving the electronic medical record 
system, something that would be used with--perhaps work toward 
interoperability?
    Ms. Council. Our PMAS system is primarily used to develop 
software and to follow the gates and processes to ensure we 
have all the processes in place to develop software or to 
purchase software and to deploy it. So it is our management 
process for how we get things done.
    Ms. Duckworth. Thank you.
    Ms. Melvin, can you explain to me in more detail the GAO's 
concerns with the decision by DOD and VA to keep operating two 
separate EHR systems rather than establish a single, integrated 
system?
    Ms. Melvin. Our concern is just the inherent duplication 
that comes with having two paths to developing systems that are 
serving a large body of population that's very similar. Also 
there are a large number of functions that are for inpatient 
requirements that are the same. A prior report showed 97 
percent of those requirements being the same for inpatient I 
should say. And our concern is from the standpoint of not 
having a common, whether the agencies will have a common goal 
that they work toward; whether, in fact, when they ultimately 
have this system and they've gone to these two separate paths, 
whether they, in fact, do end up with systems that have the 
interoperable capability between them that will allow them to 
serve patients in the way that we've talked about today and 
ultimately to improve the healthcare mission. So it's about the 
cost of having duplicative systems. It's about the overall 
management relative to your ability to deliver on those 
capabilities and serve a common mission for the servicemembers.
    Ms. Duckworth. So 97 percent----
    Ms. Melvin. This was a study that was previously done that 
showed 97 percent or over 97 percent of their inpatient 
functional requirements were common across the two Departments. 
So that is a factor that goes into our concern that the 
agencies do need to look more closely at what their capability 
is to put in place a system that's common for both Departments.
    Ms. Duckworth. Is it a true statement that VA operates the 
largest hospital network in the Nation?
    Ms. Melvin. The VA and DOD have two of the largest 
healthcare networks in the Nation, yes.
    Ms. Duckworth. How big are they in relative size, the size 
of VA's network compared to the DOD's size?
    Ms. Melvin. I believe that DOD's system is slightly larger. 
I don't want to misspeak on that. But I believe their 
healthcare system is larger than VA's.
    Ms. Duckworth. Is it larger in terms of number of patients 
served? Or is it larger in terms of more facilities?
    Ms. Melvin. I will defer----
    Ms. Duckworth. Ms. Council, you look like you have an 
answer.
    Ms. Council. The DOD is larger in terms of different 
outlets and facilities. We are larger in terms of the number of 
patients we see.
    Ms. Duckworth. Do you know how many patients you serve?
    Ms. Council. The last time I saw the number, it was 10 
million approximately in DOD; 24 million in the VA.
    Ms. Duckworth. All right. So you have more than twice as 
many patients accessing your healthcare system than DOD does.
    Ms. Council. That information, if I'm recalling it 
properly, yes.
    Ms. Duckworth. Okay. Ms. Melvin, can you explain how this 
decision for them to keep two different systems instead of a 
single, integrated system is going to affect interoperability 
well into the future?
    Ms. Melvin. I don't know the answer to that. I mean, one of 
our concerns is that the Departments haven't provided a clear 
justification for why two systems is better than one. That's 
the critical information that is needed to really justify 
moving toward the two systems.
    Again, the history of this has been that they've been down 
the path of two systems for many, many years. The single joint 
system, as we understood it, was intended to take care of some 
of the challenges that the two departments had had in their 
prior efforts to develop interoperable capabilities between two 
systems. So having a justification for why moving back to that, 
besides the obvious factors of cost and schedule that they have 
mentioned, are important to know.
    Ms. Duckworth. Maybe you'll get an answer to that question 
since you've not been able to get that information as the GAO. 
But maybe with the Congress asking for it, they will finally 
provide it. I'm out of time.
    I yield back.
    Mr. Coffman. I thank you, Ms. Duckworth.
    Mr. Hurd, you're now recognized for 5 minutes.
    Mr. Hurd. Ms. Melvin, would you be able to get us a list of 
the individuals by name at DOD and VA, including 
subcontractors, contractors, that worked on the 
interoperability project between 2008 and 2013?
    Ms. Melvin. We will look into the information that we have 
and provide you----
    Mr. Hurd. And I'm curious as to the number of people that 
worked on that project, the interoperability project, from 2008 
to 2013, who are still employed at both organizations, and 
which contractors we're still using from that period when we 
spent over $500 million and decided that instead of joining 
everything, we're going to split it up.
    Ms. Melvin. Chairman Hurd, that is not information that I 
know that we have in our records specifically at this point. 
But we would be glad to work with your staff to get that 
information.
    Mr. Hurd. Great. Thank you very much.
    Mr. Miller, what are your next two milestones for achieving 
interoperability?
    Mr. Miller. Sir, on the interoperability front, I actually, 
just last night, we provided an update on our data maps. And so 
our next milestones are basically to continue to evolve those. 
Our next delivery on the maps because we are now entering a 
maintenance phase and getting feedback, will be in the December 
timeframe. And then we're also in the process of doing our next 
software delivery which will be early next calendar year. And 
that software delivery is, basically, again, taking feedback. 
There's areas that our functional users have requested. And 
we're going to be working that software release in the January 
timeframe.
    Mr. Hurd. Great. Thank you.
    Ms. Council or Mr. Burns?
    Mr. Burns. A couple different fronts. One is, on the data 
mapping, we have a quarterly update that we do. The next one is 
coming up in November to give us the next set, as I mentioned 
earlier, the 25 domains. And then we update each one of the 
respective domains going forward. That's just on data mapping. 
And that's part of interoperability. In addition to that, we 
are testing and rolling out EHMP, otherwise known as the 
Electronic Health Management Platform. That is, in its current 
form, is we call version 1.2. And that is a read-only version 
right now. It's been--it's in delivery at two cites. And we're 
going to continue to roll that out.
    Mr. Hurd. It's in delivery, so they're the beta testers?
    Mr. Burns. Yes.
    Mr. Hurd. What are those cites?
    Mr. Burns. Hampton and the other one, off the top of my 
head, I don't recall. But I will get you the name of the other 
one.
    Mr. Hurd. Great.
    Mr. Burns. And then we are then going to the next phase, 
which is EHMP 1.3, in the January time frame to start what we 
call IOC, Initial Operation Testing, of that. That will give us 
the first capability of doing order and report write capability 
beyond the read capability we have. By the way, that also has a 
very good search engine built into it, the 1.2 version, that 
will allow you to do a lot more search capability and look up 
information, contextual and content capabilities. So those are 
two key things moving us in the interoperability direction to 
move out. And our goal is to have 1.3 out by the end of the 
year so that we can meet the December 31st----
    Mr. Hurd. Thank you, Mr. Burns and Ms. Council and Mr. 
DeVries. I'm looking forward to having further conversations 
with you all about the implementation of FITARA and ensuring 
that you all have all the tools you need in order to bring our 
IT infrastructure into the 21st century. Thank you all for 
being here.
    I yield back, Chairman.
    Mr. Coffman. Thanks to the panel.
    You're now excused.
    Today, we have had a chance to hear about problems that 
exist with multiple efforts between the Department of Defense 
and Veterans Affairs to make their health records either 
integrated or interoperable. This hearing was necessary to 
identify the continued failures that have allowed these efforts 
to remain ongoing after decades of attempts to join these two 
health--to join these two health records that cover patients of 
the largest healthcare systems in this Nation.
    As I mentioned in my opening statement, VA has expended 
billions of dollars in an attempt to improve its electronic 
health record system and make it interoperable with that of the 
DOD. Yet GAO has found that these agencies' health records 
would not be fully interoperable until at least 2018. 
Unfortunately, based on VA's track record regarding its 
information security failures and the numerous attempts made to 
join these two agencies' records, I am not even convinced that 
it is a feasible completion date. I am encouraged, however, by 
the recent personnel changes that have occurred within VA's 
Office of Information and Technology. But there is still much 
work to be done.
    I believe LaVerne Council has a sound plan and strives to 
fix VA's OI&T. But the question is, how long will it take? I am 
angered by the fact that VA and DOD poorly structured and 
continued to misuse the IPO. It is no longer a, quote/unquote, 
``single'' focal point mandated by Congress. It has become as 
divergent as the VA and DOD. And through it, both Departments 
have grossly misused money appropriated by Congress.
    As such, I am exploring ways to correct these problems once 
and for all, since VA and DOD have continued to disregard 
Congress on this matter.
    I ask unanimous consent that all members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material.
    With that, without objection, so ordered.
    I would like to, once again, thank all of our witnesses and 
audience members for joining us in today's conversation. And I 
would like to thank Chairman Hurd for holding this joint 
hearing on these very important issues.
    With that, this hearing is adjourned.
    [Whereupon, at 5:27 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
